<html>
<title> - BUILDING A NUCLEAR BOMB: IDENTIFYING EARLY INDICATORS OF TERRORIST ACTIVITIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
               BUILDING A NUCLEAR BOMB: IDENTIFYING EARLY
                   INDICATORS OF TERRORIST ACTIVITIES

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON PREVENTION OF
                     NUCLEAR AND BIOLOGICAL ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 26 2005

                               __________

                           Serial No. 109-17

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
23-703                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. DeFazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island,
Christopher Shays, Connecticut       EdwarD J. Markey, Massachusetts
Daniel E. Lungren, California        Norman D. Dicks, Washington
Jim Gibbons, Nevada                  Jane Harman, California
Rob Simmons, Connecticut             Eleanor Holmes Norton, District of 
Bobby Jindal, Louisiana              Columbia
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Christopher Cox, California (Ex      Islands
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress From the 
  State of Georgia, and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Ranking Member, 
  Subcommittee on Prevention of Nuclear and Biological Attack....     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security
  Oral Statement.................................................    22
  Prepared Statement.............................................     4
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U. S. Virgin Islands.......................................    27
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    35
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    28
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    42
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    30
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    36
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    25
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    26
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    40

                               WITNESSES

Mr. David Albright, Director, Institute for International 
  Security.......................................................    10
Ms. Laura S.H. Holgate, Vice President for Russia/New Independent 
  States Programs Nuclear Threat Initiative
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Ambassador Ronald F. Lehman, Director, Center for Global Security 
  Research
  Oral Statement.................................................     4
  Prepared Statement.............................................     6


                        BUILDING A NUCLEAR BOMB:
                      IDENTIFYING EARLY INDICATORS
                        OF TERRORIST ACTIVITIES

                              ----------                              


                         Thursday, May 26, 2005

                          House of Representatives,
                      Subcommittee on Prevention of
                     Nuclear and Biological Attack,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:01 p.m., in 
Room 210, Cannon House Office Building, Hon. John Linder 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Shays, Lungren, Gibbons, 
Simmons, McCaul, Cox, Langevin, Markey, Harman, Norton, 
Christensen, and Thompson.
    Mr. Linder. The committee will be in order. I would like to 
welcome and thank our distinguished panelists who I hope will 
help the members of this subcommittee understand how the 
Department of Homeland Security, along with other Federal 
partners, can detect in advance attempts by terrorists to buy, 
steal, or build a nuclear device.
    In recent months I have seen a number of reports from 
experts that argue that the probability of a terrorist attack 
involving a nuclear weapon against the United States is low. 
They cite the reluctance of states to share nuclear secrets and 
the difficulty for terrorists to obtain nuclear technology and 
material.
    Given the events of 9/11 and the intelligence and evidence 
collected from Al-Qa`ida documents, it would be highly 
irresponsible for us to simply disregard the nuclear threat. We 
are dealing with a thinking enemy that has no limited hatred 
for our citizens or the liberties that we cherish.
    In January of 2004, investigators in Pakistan found that 
the Nation's top nuclear weapons scientist, A.Q. Kahn, had for 
decades sold nuclear secrets to Iran and Libya. According to 
investigators, Kahn and his associates provided information on 
how to design centrifuges used to make enriched uranium. U.S. 
officials have also expressed their concern that Pakistani 
scientists may have collaborated with North Korea on uranium 
enrichment in exchange for ballistic missile information.
    What are the telltale signs that a network of this nature 
is operating? Could we have stopped A.Q. Kahn in advance from 
succeeding? This year alone, there have been six publicly 
documented instances in which nuclear material was seized from 
persons not authorized to transport them. The material seizures 
included small quantities of weapons-usable material. How many 
other instances have occurred without detection? Do we have the 
capability to effectively prevent this type of smuggling?
    I am a firm believer in pushing this threat as far from our 
borders as we possibly can. That requires our ability to detect 
early on the signs that indicate intent to buy nuclear 
material, to purchase intellectual knowledge and technology to 
build a nuclear weapon, or simply the intent to steal a nuclear 
apparatus.
    As we look to consider legislation to counter the nuclear 
threat, I look forward to the testimony of our witnesses, and I 
am hopeful that their expertise can help members of this 
subcommittee understand what can and must be done not only by 
the executive branch but also by Congress to prevent terrorists 
from obtaining such devastating devices.

 Prepared Statement of the Honorable John Linder, a Representative in 
   Congress From the State of Georgia, and Chairman, Subcommittee on 
              Prevention of Nuclear and Biological Attach

    I would like to welcome and thank our distinguished panelists who, 
I hope, will help the Members of this Subcommittee understand how the 
Department of Homeland Security, along with other Federal partners can 
detect in advance attempts by terrorists to buy, steal, or build a 
nuclear device.
    In recent months, I have seen a number of reports from experts that 
argue that the probability of a terrorist attack involving a nuclear 
weapon against the United States is low. They cite the reluctance of 
states to share nuclear secrets and the difficulty for terrorists to 
obtain nuclear technology and material.
    Given the events of 9/11 and the intelligence and evidence 
collected from Al-Qa`ida documents, it would be highly irresponsible 
for us to simply disregard the nuclear threat. We are dealing with a 
thinking enemy that has no limit in hatred for our citizens or the 
liberties that we cherish.
    In January 2004, investigators in Pakistan found that the nation's 
top nuclear weapons scientist, A.Q. Khan, had for decades sold nuclear 
secrets to Iran and Libya. According to investigators, Khan and his 
associates provided information on how to design centrifuges used to 
make enriched uranium. U.S. officials have also expressed their concern 
that Pakistani scientists may have collaborated with North Korea on 
uranium enrichment in exchange for ballistic missile information. What 
are the tell-tale signs that a network of this nature is operating? 
Could we have stopped A.Q. Khan in advance from succeeding?
    This year alone, there have been six publicly documented instances 
in which nuclear material was seized from persons not authorized to 
transport them. The material seizures include small quantities of 
weapons usable material. How many other instances have occurred without 
detection? Do we have the capability to effectively prevent this type 
of smuggling?
    I am a firm believer in pushing this threat as far from our borders 
as we possibly can. That requires our ability to detect early on the 
signs that indicate intent to buy nuclear material, to purchase 
intellectual knowledge and technology to build a nuclear weapon or 
simply the intent to steal a nuclear apparatus.
    As we look to consider legislation to counter the nuclear threat, I 
look forward to the testimony of our witnesses, and I am hopeful that 
our expert witnesses can help Members of this Subcommittee understand 
what can and must be done not only by the Executive Branch, but also by 
Congress to prevent terrorists from obtaining such devastating devices.
    I now yield to the Ranking Member of the Subcommittee, Mr. 
Langevin, for the purposes of making an opening statement.

    And I will yield to the Ranking Member of the subcommittee 
Mr. Langevin for the purpose of making a statement.
    [The information follows:]
    Mr. Langevin. Thank you, Mr. Chairman. And I would like to 
welcome our witnesses today, and I certainly look forward to 
hearing this testimony on this most important of topics.
    There has been a great deal of debate over the likelihood 
that terrorists will carry out a attack in the United States. 
Given that Al-Qa`ida and like-minded groups have publicly 
stated their intentions to conduct a nuclear attack, combined 
with the fact that A.Q. Kahn, the former head of Pakistan's 
nuclear weapons program, ran the largest black market operation 
in modern times, I believe that the nuclear terrorist threat is 
real.
    After listening to witnesses at previous hearings and 
briefings held by this subcommittee, I feel that our government 
must move quickly to build off programs like Nunn-Lugar and the 
Global Threat Reduction Initiative run by the Department of 
Energy. I believe that today's hearing certainly will go a long 
way in helping us understand the relative ease or difficulty a 
terrorist would have in building a nuclear weapon.
    I am going to be brief, but I hope the witnesses can 
address the following issues for me: First, given the National 
Intelligence Council's disturbing report that undetected 
smuggling of nuclear materials has occurred at Russian weapons 
facilities, what improvements are needed at our 
nonproliferation programs to eliminate future smuggling 
incidents?
    Next, what are the lessons learned from the A.Q. Kahn case? 
In particular, what surprised us? What caught us off guard 
other than the fact that it happened in the first place? I am 
especially interested in the type of technology that was used 
in producing nuclear weapons and what, if any, surprises were 
there?
    In addition, and finally, how do we deal with scientists 
from rogue states such as North Korea who will sell nuclear 
secrets to the highest bidder?
    As I have said in previous hearings, we must begin to move 
with a sense of urgency to prevent terrorists from executing a 
nuclear attack on our soil or against our interests.
    Mr. Chairman, I thank you for holding this hearing today 
and I look forward to hearing from our witnesses. Thank you.
    Mr. Linder. Other members of the subcommittee are reminded 
that opening statements may be submitted for the record.
    I would like to now introduce today's witnesses. Dr. Ronald 
Lehman is the Director of the Center for Global Security 
Research at the Department of Energy's Lawrence Livermore 
National Laboratory, and is also the Chairman of the Governing 
Board of the International Science and Technology Center. Dr. 
Lehman has served as the Director of the U.S. Arms Control and 
Disarmament Agency, and as Assistant Secretary for 
International Security Policy with the U.S. Department of 
Defense.
    Mr. David Albright is the President of the Institute for 
Science and International Security in Washington, D.C. Prior to 
working at ISIS, Mr. Albright served as a consultant to the 
International Task Force on Prevention of Nuclear Terrorism at 
the Los Alamos National Laboratory and the International Atomic 
Energy Agency.
    Ms. Laura Holgate is the Vice President for Russia and New 
Independent States Programs at the Nuclear Threat Initiative, 
which was created in 2001 by two old friends of mine, Sam Nunn 
and Ted Turner. Prior to working at NTI, Ms. Holgate directed 
the Department of Energy's Office of Fissile Materials 
Disposition, and served as a Special Coordinator for 
Cooperative Threat Reduction at the Department of Defense.
    Welcome you all. All of your written statements will be 
made part of the record, without objection, and I would welcome 
a summary and would like to try and keep within 5 minutes as 
best you can.

 Prepared Statement of the Honorable Christopher Cox, a Representative 
 in Congress From the State of California, and Chairman, Committee on 
                           Homeland Security

    Thank you, Chairman Linder, for holding this hearing on this very 
important topic. I join you in welcoming our panel of witnesses today 
who I hope will help us understand how we might recognize indicators of 
terrorist attempts to obtain and use a nuclear weapon, and more 
importantly provide us with suggestions as to how we might pre-empt 
such an attempt.
    Many have said that the detonation of a nuclear device by 
terrorists is a low probability event with high consequences. But we 
must calculate the level of effort we should commit to any particular 
threat by discounting its consequences by its likelihood. And the 
consequences that would follow terrorist use of a nuclear weapon are 
unimaginably horrific--scores or hundreds of thousands of dead and 
injured, countless tens of billions of dollars in damage, and a likely 
permanent change in our way of life, governance, civil liberties, and 
economy. Even discounted for probability, it necessarily follows that 
prevention of this type of terrorism is the highest priority to protect 
the security and economic well-being of our Nation.
    The interest of terrorists in obtaining and using a nuclear weapon 
is established by both intelligence and simple common sense. 
Intelligence has demonstrated that the terrorists are well aware of the 
value of such a weapon--and little wonder. It is the ultimate terrorist 
device, as it would accomplish the goal of killing tens or hundreds of 
thousands of people, devastating the economy, and spreading terror. The 
imperative of detecting and preventing such an attack, therefore, is a 
given. This hearing will explore how to detect the efforts to buy, 
steal, or build such weapons before they can be deployed.
    During the past two hearings in this subcommittee, the Members were 
told about the concept of a ``layered'' defense against the nuclear 
threat. In principle, this seems a prudent approach. From what we can 
gather, however, in practice this effort appears to be an uncoordinated 
and duplicative layering of bureaucracies. We need to have a 
coordinated effort to identify and act upon the indicators that can be 
gathered from deployed technologies and integrating that information 
with products from our intelligence community. We must focus on 
determining what these indicators are--what are the phenomena we could 
observe that would indicate that terrorists are seeking to buy, steal, 
or build a nuclear device.
    To give an analogous example: all day every day, the U.S. military 
in South Korea tracks dozens of indicators that would provide clues 
that North Korea was preparing to launch a military assault. The United 
States must assemble and track, all day every day, a similar catalogue 
of telltale indicators that terrorists are seeking to acquire or create 
nuclear weapons.
    The long-undetected illicit proliferation activities of AQ Khan 
leave us with little assurance as to whether or not our enemies 
overseas might have obtained nuclear weapons technology, materials, or 
know-how from Khan or his associates. This uncertainty simply means 
that we must be more vigilant in our efforts to track down nuclear 
traffickers overseas, secure foreign nuclear material, and prevent 
nuclear material from entering our country.
    As we consider legislation in the coming months, I hope that our 
expert panel can help this committee fully evaluate how best to 
identify and track early indicators of terrorist nuclear efforts.

    Mr. Linder. Ambassador Lehman.

  STATEMENT OF RONALD F. LEHMAN, DIRECTOR, CENTER FOR GLOBAL 
                       SECURITY RESEARCH

    Mr. Lehman. Thank you, Mr. Chairman. I am honored to be 
invited along with two very good friends to discuss this very 
important issue with you. I still wear a number of hats, so I 
am speaking in my personal capacity, and I will try to be very 
brief.
    Much has been said in public about nuclear terrorism, not 
all of it correct. And that is not all bad. Special care must 
be taken not to provide terrorists with cookbooks to solve 
their problems. Nor do we want to expose to terrorists our 
vulnerabilities or reveal too much about countermeasures we may 
take. Still, we must be candid with ourselves. There is a real 
danger, and there is much that we don't know or may not find 
out until it is too late. This is particularly true with 
specific terrorist planning and activities.
    The consequences of failure could be tragically high. We 
must take the possibility of nuclear terrorism very seriously 
now, as relevant technologies continue to spread. This requires 
that everyone be sensitive to the danger. Thus we must balance 
not saying too much with ensuring that we are saying enough.
    You have asked me to focus today on the possibility that 
terrorists might gain access to technology and technologists 
useful to the acquisition of nuclear weapons. Here we 
understand basic realities and a number of trends: Building 
nuclear weapons from scratch is a challenge. Terrorists may 
find it easier to obtain them by theft, gift, or purchase. Even 
this will not be easy, and the U.S. and other governments have 
programs aimed at preventing such activities, particularly with 
the help of sufficiently knowledgeable insiders. However, 
fissile material, key weapons components, and conceivably full-
up nuclear weapons could be obtained.
    Also we cannot rule out the possibility that terrorist 
organizations may attempt to construct nuclear weapons. 
Although assembly may be a far more difficult path than theft, 
considerable dual-use technology continues to become 
accessible. And whether nuclear power generation expands or 
contracts in the years ahead, a huge overhang of weapons-usable 
material will remain as a potential source of nuclear weapons.
    Because fissile material is essential to the nuclear 
devices terrorists may wish to acquire, controlling and 
securing fissile material must be the highest priority, second 
only to protecting weapons themselves. At the same time, we 
must be careful not to recreate the mistakes of the Maginot 
Line. We can gain great leverage from sound physical security, 
especially when guns, guards, and gates are augmented by an 
effective system of material protection, control, and 
accountability.
    In the end, however, any linear defense will have 
vulnerabilities, particularly if an insider threat is involved. 
This is true in securing fissile material and it is true in 
preventing the exploitation of dual-use technology. Worse, 
terrorist groups are becoming adept at exploiting legitimate 
industries' activities and individuals. In between the 
legitimate and black markets are not very well understood but 
unsavory gray markets. Here, it is individuals with whom we 
seldom have contact who are more likely than we are to see 
activity related to illicit nuclear weapons activity. Thus in 
countries where we have concerns about security, we can help. 
The indigenous governments and institutions, however, must step 
up to the seriousness of the matter, take responsibility, and 
hold people accountable.
    Essential to the success of the terrorists is the 
assistance of knowledgeable individuals, knowledgeable in the 
sense that they are good enough to solve the problems that 
terrorists face. In the case of nuclear terrorism, those 
problems may be how to overcome security at nuclear storage 
areas, or how to work with radioactive material, or how to 
design an explosive device. The fact that terrorists need 
access to knowledgeable people gives us a further arena in 
which to counter the terrorists. Engagement of these 
communities and industries through their governments and 
directly is of great importance. In particular, we need to 
become involved in the Islamic world.
    Today I want to stress this need for broader engagement, 
layered defenses, and a dynamic strategy. There is an unclear 
but present danger that governments of concern, rogue 
officials, or nonstate groups can exploit ever more widespread 
dual-use technology to obtain weapons of mass destruction. 
Modern societies will have to do a better job of understanding 
the latent capabilities for destructiveness in our societies. 
We need a better assessment of our vulnerabilities, and we need 
to do a better job of managing the risks. We need to understand 
that the distinction between state and nonstate actor is 
blurred. We need to build a dynamic strategy that recognizes 
that our reaction times will be short.
    When you are looking for a needle in a haystack, it helps 
to have a tool like a magnet. Most of these active tools such 
as sting operations involve intelligence and law enforcement, 
and must be undertaken by governments. The governments that may 
prove to be best positioned to deal with terrorists may be 
governments elsewhere. Many governments are stepping up to the 
terrorist problem, but many are not engaging effectively on the 
WMD challenge as it relates to terrorism any more effectively 
than they have dealt with the problem of the spread of nuclear 
weapons to nation states. The reasons are clear: Governments 
themselves have competing goals and interests. Many enabling 
technologies are too widespread to monitor cheaply and 
effectively. Modern business networks with just-in-time 
inventories, offshore outsourcing, flat, almost virtual 
organizational pyramids, numerous competitors, and multi-tier 
markets are amorphous and changing. Universal norms seem 
inappropriate in specific cases; enforcement options are 
unattractive.
    We run the risk of replaying the old debate of whether the 
technologies are the problem or those that use them are the 
problem. We won't be effective until we recognize that action 
must be taken on both fronts.
    Thank you, Mr. Chairman.
    Mr. Linder. Thank you, Ambassador.
    [The statement of Mr. Lehman follows:]

          Prepared Statement of the Honorable Ronald F. Lehman

    Mr. Chairman, Distinguished Members of the Committee:
    I am honored that you have asked me to join in your examination of 
the danger of nuclear terrorism. As this Committee knows, I have 
assisted the US government in a number of areas that relate to this 
topic and continue to do so. Both personally and professionally, I 
consider these initiatives to be very important, but you have asked for 
my personal views. Thus, today I do not speak officially for any 
program, organization, or Administration with which I have been or am 
now associated.
    Much has been said in public about nuclear terrorism, not all of it 
correct. And that is not all bad. Indeed, special care must be taken 
not to provide terrorists with ``cookbooks'' to solve their problems. 
Nor do we want to expose to them vulnerabilities they might exploit or 
reveal too much about countermeasures we may be able to take. Above 
all, we must be candid with ourselves. There is much that we don't know 
or may not find out until it is too late, particularly about specific 
terrorist planning and activities. We will be asking constantly whether 
the glimmers we see are the ``tip of an iceberg'' or simply 
disconnected ``ice cubes.''
    Although the odds that any particular group of terrorists will 
acquire nuclear weapons are low, the probability that some terrorists 
somewhere will acquire a nuclear weapon may increase over time. The 
consequences could be tragically high. We must take the possibility of 
nuclear terrorism very seriously now and in the years ahead as relevant 
technologies continue to spread, no matter how difficult we make it for 
terrorists to acquire nuclear weapons. This requires that publics be 
sensitive to the danger, particularly those who may someday find 
themselves in a position to help. Thus, we must balance not saying too 
much with saying enough.
    You have asked me to focus today on the possibility that terrorists 
might gain access to technology and technologists useful to the 
acquisition of nuclear weapons. Here, we understand basic realities and 
a number of trends. Building nuclear weapons from scratch is a 
challenge. Terrorists may find it easier to obtain them by theft, gift, 
or purchase from sympathetic governments or rogue government 
organizations. Even this will not be easy, and the U.S. and other 
governments have programs and policies aimed at preventing just such 
activities. Particularly with the help of sufficiently knowledgeable 
``insiders,'' however, fissile material, key weapons components, or 
full-up nuclear weapons could be purloined. Much has been made of 
inadequate security in the transition republics of the former Soviet 
Union. South and East Asia also deserve special attention, but securing 
fissile material remains a global problem.
    Still, we cannot rule out the possibility that terrorist 
organizations may attempt to assemble nuclear weapons from components 
or even from amounts of fissile material obtained from some source. (It 
is unlikely that typical terrorist groups would by themselves succeed 
in enrichment or reprocessing, but it is conceivable.) Although 
assembly may be a far more difficult path than theft, considerable 
knowledge and technology including dual-use equipment and facilities 
once associated with nuclear weapons continues to become more 
accessible. And whether nuclear power generation expands or contracts 
in the years ahead, a huge overhang of weapons-useable material will 
remain as a potential source of nuclear weapons even if no new 
production were to take place and even if we eliminate large amounts of 
existing fissile material.
    In that sense, we already have strategic warning. We know there is 
great risk. We can point to general indicators such as the spread 
around the world of dual-use scientific knowledge, engineering skills, 
industrial capabilities, nuclear materials, and the like. A political, 
military, social, and economic overlay can further note the penetration 
of these capabilities into regions of political turmoil and highlight 
how they may be networked to create nuclear weapons potential. We can 
correlate these with visible terrorist activities by groups with 
motivations, statements, and attacks that suggest an interest in 
weapons of mass destruction (WMD). These indicators can help in 
assessing risk and setting priorities, but these strategic indicators 
may become fewer and less clear in the future as latent WMD potential 
becomes even more widespread. Moreover, we have very little certainty 
of tactical warning and may get few precise actionable indicators of 
any WMD attack.
    Because fissile material is essential to the nuclear devices 
terrorists may wish to acquire, it will come as no surprise that 
controlling and securing fissile material must be the highest priority, 
second only to protecting weapons themselves. At the same time, we must 
be careful not to recreate the mistakes of the Maginot Line. We can 
gain great leverage from sound physical security, especially when 
``guns, guards, and gates'' are augmented by an effective system of 
material protection, control, and accountability. In the end, however, 
any linear defense will have vulnerabilities, particularly if an 
``insider threat'' is involved. This is true in securing fissile 
material, and it is true in preventing the exploitation of dual-use 
technology. Worse, terrorist groups, as with other criminals such as 
drug cartels, money launderers, and smugglers, are becoming more adept 
at exploiting legitimate industries, activities, and individuals who 
unknowingly become a part of the network. In between the legitimate and 
black markets are not very well understood, but unsavory ``gray'' 
markets. Here too it is individuals with whom we seldom have contact 
who are more likely than we are to see activity related to illicit 
nuclear weapons related activity.
    Thus, in the transition countries and other countries where we have 
concerns about security, we can help. The indigenous governments and 
institutions, however, must step up to the seriousness of the matter, 
take responsibility, and hold people accountable for adopting best 
practices and then testing their security measures and personnel to 
make them even more effective. Here too we can help even if they, not 
we, are more likely to have the right people at the right time at the 
right place positioned to do the right thing. They, like we, must have 
a dynamic strategy that takes into account that terrorists will probe 
and adjust until they determine a way ahead.
    Essential to the success of the terrorists is the assistance of 
knowledgeable individuals--knowledgeable in the sense that they are 
good enough to solve the problems the terrorists face. In the case of 
nuclear terrorism, those problems may be how to overcome security at 
nuclear storage areas or how to work with radioactive material or how 
to design an explosive device. Terrorists are unlikely to begin at the 
basic research level, and they are unlikely to seek or find Nobel Prize 
winners to lead their programs, although totalitarian regimes have had 
access to numerous world-class talents. Terrorists are more likely to 
try to bring together journeyman skills related to proven paths, and 
they may be able to attract competent, if disgruntled or disturbed, 
people. The less they have to break new ground, the better from their 
perspective.
    This is not to say they will follow exactly current or historic 
paths taken by nuclear weapons states. They may surprise us in their 
creativity. But they will need help and much of that help can only come 
from technologically savvy people, be they scientists, engineers, 
technicians, or just employees who know where things are located or how 
they work. The technology sector of American industry will tell you 
that the best form of knowledge or technology transfer is the transfer 
of knowledgeable people. There is no reason to believe it is much 
different in the case of terrorism.
    The fact that terrorists need access to knowledgeable people gives 
us a further arena in which to counter the terrorists. Unfortunately, 
it cannot be said that all individuals in the technology sector would 
refuse to help terrorists. The history of crime and terrorism, 
unfortunately, includes a number of technical people including medical 
doctors who have taken professional oaths to protect lives. Ideological 
or theological extremists are to be found in the technical communities, 
which, however cosmopolitan, generally contain most elements of the 
views of the societies with which they most closely interact. Still, 
the technology sector is one populated predominantly by individuals who 
must interact with a wide range of people who do not share the goals, 
or at least the means of terrorists.
    Much of the community of technologically savvy individuals is 
sensitive to the security concerns we have about terrorist access to 
dual-use technology or material, be it nuclear, chemical, biological, 
or other. Some are very aware of the dangers. Most operate in an 
environment that stresses security of intellectual property and 
industrial know-how. Many work in an export control environment. 
Important segments work on safety and security. Others work in areas 
such as sensors or vaccines that may provide countermeasures. The 
United States and its allies have considerable interaction with this 
community in the advanced economic sectors. We are less well connected 
to the scientific and industrial networks that operate in less advanced 
economies, especially within authoritarian regimes and troubled 
regions. Even here, however, there are contacts and means of influence. 
Engagement of these communities and industries through their 
governments and directly is of great importance. In particular, we need 
to become more involved in the Islamic world.
    I want to stress this need for broader engagement, layered 
defenses, and a dynamic strategy, in part, because the problem of the 
latency of potential destructive capabilities in developed and 
developing economies is bigger than the nuclear question. There is an 
unclear and present danger that governments, rogue officials, or non-
state groups and individuals can exploit ever more widespread dual-use 
technology to obtain weapons of mass destruction or in other ways 
threaten great damage. I say unclear danger because so many 
capabilities can be networked in so many ways that it is difficult 
anticipate the precise use to which they will be put. I say present 
danger because the risks are here and now and include more than the 
nuclear. Indeed, many analysts believe that the greatest threat is 
biological.
    Nuclear and biological attack clearly pose the most disastrous 
consequences. Still, we may also be under estimating the lesser dangers 
that are associated with chemical attacks and conventional attacks. The 
modern global economy is highly leveraged. We must not let the 
complexity of economic activity and our spirited efforts at recovery 
after the September 11, 2001, attacks lead us to underestimate the 
total economic cost of both the cumulative harm over time and the steps 
taken in response. We are fortunate that we were able to manage our way 
through this period without greater economic disruption. We cannot rule 
out, however, the possibility that a series of major terrorist attacks, 
especially if involving WMD and especially nuclear weapons, could push 
the world into an economic depression with devastating political and 
social consequences that are not lost on the terrorists who might want 
to bring this about.
    Modern societies will have to do a better job of understanding the 
latent capacities for destructiveness in our societies. We need a 
better assessment of our vulnerabilities, and we need to do a better 
job of managing the risks. By ``latent'' capacities, I mean what the 
dictionary defines as ``potentially existing, but not presently 
evidence or realized.'' We need to understand the degree to which the 
potential to acquire, deploy, and use WMD is becoming more accessible 
to more players (state, quasi-state, and non state) for more deadly 
goals against our citizens and interconnected societies. We need to 
build a dynamic strategy that recognizes that our reaction times will 
be short because the lead times for terrorists may become much shorter 
and our ability to observe their preparations weaker. This will put a 
premium on prevention. It will put a premium on active strategies for 
intelligence and law enforcement.
    When you are looking for a needle in a haystack, it helps to have a 
tool like a magnet. ``Sting operations'' play an important role despite 
their limitations. Recognizing that terrorists are attracted to 
vulnerabilities and icons may improve our chances of detection. 
Similarly, choke points and boundaries can increase the chances of 
detection. Going to the source by infiltrating or monitoring terrorists 
groups and those they seek to exploit to obtain weapons capability 
becomes more important. Most of these activities involve intelligence 
and law enforcement and must be undertaken by governments. The 
governments that may prove to be best positioned to deal with 
terrorists may be governments elsewhere. Terrorism is a multinational 
problem, and multinational solutions, such as closer cooperation among 
intelligence and law enforcements agencies, especially in combating 
nuclear materials trafficking, are needed to deal with it.
    Many governments are stepping up to the terrorist problem, but many 
are not engaging effectively on the WMD challenge as it relates to 
terrorism any more effectively than they have dealt with the problem of 
the spread of nuclear weapons to nation-states. The reasons are clear. 
Governments themselves have competing goals and interests. Many 
enabling technologies are too widespread to monitor cheaply and 
effectively. Modern business networks with ``just in time'' 
inventories, offshore outsourcing, flat-almost virtual organizational 
pyramids, numerous competitors, and multi-tiered markets are amorphous 
and changing. Universal norms seem inappropriate in specific cases. 
Enforcement options are unattractive.
    We run the risk of replaying the old debate over whether the 
technologies are the problem or those that use them are the problem. We 
won't be effective until we recognize that action must be taken on both 
fronts. We need only look at the problem of nuclear proliferation among 
nations to see that we are in danger of making the same mistake with 
respect to terrorism, i.e., assuming that if we put in place measures 
to control material, we have solved the problem. These safeguard 
measures have helped, and helped greatly. But for too many years, the 
international community relied too heavily on IAEA safeguards of 
declared material and declared facilities while it sought to avoid 
addressing the more complex issues of motivations, planned latency, 
covert programs including non-materials related activity, third-party 
assistance, non-state actors, and treaty break-out. Even now that these 
risks have been so clear, we do not have in place the means to deal 
effectively with clear violations of the NPT.
    Again, we run the risk of making the same mistake on the terrorist 
front. To treat fissile material as if it were the gold in Fort Knox 
has the right spirit. Unfortunately, the better analogy may be to 
armored cars, bank vaults, or art masterpieces in museums. Every now 
and then there is a heist, carefully prepared--sometimes with the help 
of an insider. Since we must deal with conventional, biological, and 
chemical terrorist threats in which we cannot rely so heavily on 
materials controls, we should look toward a synergistic strategy for 
dealing with nuclear terrorism that is also proactive.
    Deeper cooperation among nation-states in intelligence and law 
enforcement can be supplemented by counter-WMD cooperation such as in 
the Proliferation Security Initiative and by the fulfillment of the 
potential of UNSC 1540, which moves to hold governments accountable for 
measures to prevent non-state actors from acquiring WMD. Across the 
board, we need to roll up our sleeves and work together more at the 
detailed level. In this context, more extensive and advanced 
cooperative threat reduction that involves embedded engagement with 
scientific, technical and industrial communities around the world will 
be necessary to improve understanding of the problem and develop 
countermeasures. It may also give us more hope that there will be 
someone at the right place at the right time who does the right thing.
    Thank you.

    Mr. Linder. Mr. Albright.

     STATEMENT OF DAVID ALBRIGHT, DIRECTOR, INSTITUTE FOR 
                     INTERNATIONAL SECURITY

    Mr. Albright. Thank you. Thank you for inviting me, and I 
look forward to a discussion with long-term colleagues.
    The U.S. government and this committee is wisely taking 
extraordinary steps to reduce the chance of terrorists getting 
nuclear weapons, regardless of whether we perceive the risk as 
low or even high. And toward that goal, the priority is 
developing more effective means to detect and prevent a 
terrorist group's efforts to acquire nuclear weapons.
    What I would like to do is focus my comments on the theft 
of fissile material and construction of nuclear weapons by a 
terrorist group. And part of the reason for this is the 
enormous stocks of weapons-usable fissile material in the 
world. These large, and, in some cases, inadequately protected 
stocks could provide more opportunities for terrorists than 
this theft of nuclear weapons. I have provided the committee 
with a table of our estimates on holdings, in-country holdings 
of fissile material around the world. And of the total, about 
2,400 tons of fissile material, roughly half is in Russia. But 
I would like to point out that there are stocks in many other 
places, and that these need to be of concern also.
    I have also provided the committee a figure describing a 
pathway whereby a terrorist group could acquire and use a 
nuclear weapon. It starts with planning in the group's search 
for fissile material, which we probably would all agree is 
probably the hardest and most uncertain task facing a terrorist 
group. Another key challenge is building the nuclear weapon 
itself; that there are certain steps involved in constructing 
the weapon that could present serious challenges for a 
terrorist group. Nonetheless, I think they can overcome those 
problems. Then the group must be able to assemble the weapon 
and move it to a target for detonation. And the detection of 
the terrorist group's efforts could be discovered all along 
this pathway.
    However, certain steps can be made more vulnerable to 
outside detection, and I would like to focus on the two more 
promising ones. One is the location where weapons-usable 
fissile material are stored or used, and the sites where 
nuclear components would have to be made and assembled by the 
terrorists.
    And with regard to the first one, I mean, these sites are 
already the focus of U.S. and international efforts to increase 
physical security. A payoff of this work is to both increase 
the difficulty of theft or diversion of fissile materials, and 
increase the probability of detection of efforts to steal or 
divert the fissile material from these sites.
    A U.S. priority has to be to try to better understand the 
size and physical protection of all major stocks of fissile 
material, particularly in Russia. The U.S. should aim to 
develop extensive knowledge of all significant stocks of 
fissile material, where they are located, and how the country 
provides adequate security. And this goal should be 
accomplished cooperatively with other states whenever possible. 
And a focus should be on U.S. personnel having legitimate 
contact and cooperation with individuals working at sites with 
fissile material. And, as I have said, this contact could 
increase the chance of learning about suspicious activity at 
the site and increase physical protection and accounting at the 
same time.
    Now, the U.S. agencies are already improving their 
knowledge of fissile material stocks and working in this 
direction, but certainly more work needs to be done, although I 
would want to commend the work so far.
    The second part of the pathway I would like to discuss is 
the manufacture of nuclear weapons components themselves. And 
this task involves the terrorist group accomplishing many 
things, such as casting plutonium or highly enriched uranium 
metal in vacuum furnaces, working with fast electronics and 
high explosives in the case of an implosion-type nuclear 
weapon, or heavy projectiles in the case of a gun-type weapon.
    Although all these tasks can be accomplished in small 
buildings with relatively little equipment, they can be 
vulnerable to detection. These tasks are going to involve 
equipment and materials that are considered sensitive and must 
be purchased. In addition, the necessary know-how is 
specialized and relatively uncommon. Therefore, one way to 
increase the chance of detection is to use the extensive 
infrastructure dedicated to thwarting illegal exports to 
states.
    Most countries have national export control systems, 
although of mixed quality and effectiveness. The states with 
the most effective control system also have required companies 
and individuals involved in exports of sensitive items to 
become more aware of dangerous or illegal exports. These 
individuals also in certain cases, which we have seen 
personally, watch domestic sales in order to thwart illegal 
retransfers out of this state, and they become in a sense the 
first line of defense on the sale of equipment to dangerous 
elements.
    Although this approach applied to thwarting terrorist 
efforts cannot be as effective as when applied to illegal 
procurements by states, it can still provide a way to increase 
the detection of suspicious individuals trying to acquire 
certain equipment or materials that could be used in 
manufacturing of their weapon.
    An overarching goal in both cases that I have discussed is 
to work with other states and individuals to increase the 
awareness of the risk of nuclear terrorism and build a norm or 
culture that values physical protection and transparency. In 
doing so, the chance of detecting terrorist efforts to build 
nuclear weapons can also be increased. Thank you.
    Mr. Linder. Thank you, Mr. Albright.
    [The statement of Mr. Albright follows:]

    [GRAPHIC] [TIFF OMITTED] T3703.001
    

             Fissile Materials of Special Concern (end 2003, in tonnes) In-Country Stocks of Unirradiated Plutonium and Total Stocks of HEU
                                                              ISIS Estimates--May 26, 2005
                                                                          DRAFT
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Plutonium                                    HEU
                   Country                    ------------------------------------------------------------------------------------    Total (rounded)
                                                 Military        Civil       Subtotal      Military        Civil       Subtotal
--------------------------------------------------------------------------------------------------------------------------------------------------------
Russia.......................................          145          38.2         183.2          1070         15-30     1085-1100                   1275

Pakistan.....................................         0.04            --          0.04           1.1            --           1.1                   1.14

North Korea..................................         0.04            --          0.04             ?            --             0                   0.04

India........................................         0.04         1-1.5     1.04-1.54           0.5            --           0.5                1.5-2.0
China........................................          4.8            --           4.8            20             1            21                     26

South Africa.................................           --            --             0            --           0.5           0.5                    0.5

Belgium......................................           --           3.5           3.5            --           0.5           0.5                    4.0
France.......................................            5          78.6          83.6            29           6.4          35.4                    119
Germany......................................           --          12.5          12.5            --             1             1                   13.5
Israel.......................................          0.6            --           0.6             ?            --             0                    0.6
Japan........................................           --           5.4           5.4            --           2.0             2                    7.4
Switzerland..................................           --       0.5-1.0       0.5-1.0            --             0             0                0.5-1.0
United Kingdom...............................          7.6          96.2         103.8          21.9           1.5          23.4                    127
United States................................           92            --            92           700            --           700                    792

Smaller Stocks of                                       --           --              0            --            20            20                     20
HEU in Many Countries........................

Smaller Stocks of                                       --             1             1            --            --             0                      1
Plutonium in Several
Countries....................................

Total (rounded)..............................          255           237           492          1720           170          1890                   2400
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Mr. Linder. Ms. Holgate.

STATEMENT OF LAURA S.H. HOLGATE, VICE PRESIDENT FOR RUSSIA/NEW 
     INDEPENDENT STATES PROGRAMS NUCLEAR THREAT INITIATIVE

    Ms. Holgate. Mr. Chairman, Congressman Langevin, I 
appreciate the opportunity to contribute to your subcommittee's 
exploration of nuclear terrorism, and, as my colleagues have 
said, among old friends.
    At NTI, we have observed that the difference between a 
terrorist and a nuclear terrorist is found in the word 
``nuclear.'' No nuclear material, no terrorism.
    This obvious logic underpins our fundamental prescription 
for averting nuclear terrorism: Secure, consolidate, and, where 
possible, eliminate nuclear weapons materials in all forms, in 
every location.
    This terrorist threat, which world leaders agree is our 
number one security priority, requires an adjustment in our 
thinking about what role individuals play in either preventing 
or contributing to nuclear threats. I believe that access to 
nuclear materials is more important in considering today's 
nuclear realities than is sophisticated scientist knowledge.
    This is not to say that scientists don't pose a threat. 
A.Q. Kahn is the prime example. But even his contribution to 
nuclear proliferation had less to do with his specific 
scientific knowledge and more to do with his radical ideology, 
greed, and entrepreneurial skill.
    In considering the immediate post-Cold War threats, the 
potential for former Soviet scientists to decamp for Baghdad or 
Tripoli or Pyongyang, carrying in their heads or their 
briefcases the crown jewels of nuclear bomb design, was a prime 
concern, and a number of U.S. and international programs were 
developed to address this potential exodus. The good news is 
that this early set of proliferation concerns never came to 
pass, probably for a combination of reasons: These programs' 
effectiveness, Russian preferences to remain within familiar 
social and political structures, patriotism, professionalism, 
and a plain old fear of getting caught. So far as we know, 
there has never been a Russian A.Q. Kahn.
    The bad news is that U.S. and international programs have 
not adapted to today's nuclear threat: terrorists' pursuit of 
nuclear capability through theft of materials or weapons. 
Almost any employee at a nuclear facility can facilitate 
nuclear terrorism through access to nuclear materials or 
through information about how such materials or weapons are 
handled at a particular site. Individuals at all levels know 
about storage venues and conditions, transfer schedules, 
security vulnerabilities, routines, and procedures. This kind 
of insider information provided to an outside terrorist group 
can help them acquire nuclear weapons and materials. The 
nuclear materials, once acquired, a small handful of chemists 
and metalworkers, even without prior experience with weapons, 
could build a crude but effective gun-type device with the 
explosive power of the bomb we dropped on Hiroshima, which I 
remind you our bomb designers were confident enough in that 
they did not even test before they used it.
    The drastic shrinkage of Russian nuclear facilities we will 
experience over the next several years creates the potential 
for disgruntled, opportunistic, unprofessional, or blackmail 
personnel at all levels to make their knowledge of or access to 
materials and weapons available to those who seek it. In an 
environment in which petty pilferage of toilet seats, cooking 
oil, and even small arms occurs on a daily basis, we should not 
assume that less educated staff will distinguish nuclear 
materials from other assets they may be willing to sell or 
reveal. In fact, it is more likely that a machine tool operator 
or a maintenance worker would do so than that the higher-level 
scientist would.
    The solution to today's nuclear threats is this: 
sustainable alternatives for all types of employees set to lose 
jobs owing to the very valid and necessary nuclear downsizing 
in Russia. Existing programs, such as the Department of 
Energy's Russian Transition Initiatives and the Department of 
State-funded science and technology centers, will continue to 
be valuable components of a comprehensive approach. But taking 
these threats seriously would involve including the following 
changes or additions to current efforts, and I will make a few 
examples.
    First of all, to spin off nonweapons research and 
commercial activities to locations outside nuclear facilities 
so that staff employed there no longer have awareness of or 
access to nuclear weapons and materials.
    Second, to reduce current moonlighting practices by 
creating full-time sustainable jobs outside institutes.
    Third, developing new techniques to reduce or redirect 
excess staff, such as early retirement programs.
    Fourth, and most importantly, make reducing total 
employment at such facilities, especially of employees with 
access to nuclear materials and weapons and related information 
the key measure of merit.
    This kind of approach would require greater funding, but, 
even more important, broadened authorities for existing 
programs and linkages to traditional international efforts such 
as those carried out by the U.S. Agency for International 
Development. Even though critics have dismissed the relevance 
of so-called soft programs, developing sustainable alternatives 
to weapons work is a critical component of reducing nuclear 
terrorism.
    At NTI, we frequently ask ourselves, our elected 
representatives, and our fellow citizens of the world: The day 
after a catastrophic instance of nuclear terror, what will we 
wish we had done to prevent it, and why aren't we doing that 
now? I have done my best to offer some answers, but the second 
question has no good answers. The time to act is now. Thank 
you.
    Mr. Linder. Thank you very much.
    [The statement of Ms. Holgate follows:]

                Prepared Statement of Laura S.H. Holgate

    Mr. Chairman, I appreciate the opportunity to contribute to your 
exploration of nuclear terrorism. At NTI, we have observed that the 
difference between a terrorist and a nuclear terrorist is found in the 
word ``nuclear'': no nuclear material, no nuclear terrorism. This 
obvious logic underpins our fundamental prescription for averting 
nuclear terrorism: secure, consolidate, and--where possible--eliminate 
nuclear weapons materials, in all forms, in every location. We know how 
to do this, and it is affordable and achievable within the next decade, 
but we have yet to act with the sense of urgency this threat requires, 
whether out of a misplaced sense of priorities, or out of a false 
perception that this threat is not real.
    How might a terrorist become a nuclear terrorist? They could steal 
or acquire a weapon manufactured by a state with a weapons program. 
Russia has tens of thousands of weapons, including small, portable and 
low-tech tactical weapons, none of which are subject to outside 
accounting. The Beslan tragedy demonstrates the corruption and 
incompetence that exists in the Russian security services. Pakistan is 
known to have radical Islamists in the armed services charged with 
guarding their weapons, and A.Q. Kahn, one of the leaders of their 
nuclear weapons program, ran the most stunning nuclear black market 
commerce we have ever seen. North Korea, who has proven they will sell 
anything to anyone, may be prepared to sell one or more weapons to 
terrorists once they make enough for themselves.
    Given the technical difficulties associated with detonating a bomb 
that they did not design, however, terrorists might instead prefer to 
build their own. They could build a simple gun-type device, based on 
stolen highly enriched uranium or, less likely, an implosion device 
using plutonium. The largest sources of raw materials of nuclear bombs 
can be found in facilities associated with national weapons programs, 
but they are also used, and, in many instances poorly guarded, in 
dozens of civilian research facilities and college campuses in over 40 
nations around the world. The nuclear materials once in hand, a small 
handful of chemists and metal workers, even without prior experience 
with weapons, could build such a device.
    We need not speculate about Osama bin Laden's interest in acquiring 
a nuclear weapon. He has spoken to the world of his intentions, and 
even sought a fatwa, or religious decree, sanctifying his pursuit of 
nuclear and other weapons of mass destruction. We know that he 
recruited scientists and engineers--many trained in Western 
institutions--who could help him realize his nuclear vision, and we 
found nuclear weapons designs in the caves in Afghanistan. It would be 
foolish to believe that he is unique among terrorists in seeking 
nuclear capabilities.
    Preventing terrorists' access to nuclear weapons and materials is 
the single most effective way to avert nuclear terrorism; it's the only 
step in the process where we have an advantage. Every other step along 
the terrorists' path to the bomb is easy for them and hard for us. The 
US and others have been making progress in the prevention mission, in 
large part through the visionary and effective threat reduction 
programs known collectively as ``Nunn-Lugar,'' but not on a pace or at 
a scope that will solve the problem on a timeframe relevant to the 
threat.
    When Senators Nunn and Lugar originally passed their ground-
breaking bill in 1991, our picture of the proliferation threat was very 
different. We worried about starving Soviet scientists decamping for 
Baghdad or Tripoli or Pyongyang, carrying in their heads or their 
briefcases the ``crown jewels'' of nuclear bomb design, sophisticated 
miniaturized weapons suitable for delivery on the tip of an ICBM. 
Programs like the International Science and Technology Center were 
designed to give these scientists a reliable monthly stipend in 
exchange for working on peaceful research topics, in the hopes that 
avoiding economic desperation would prevent them from selling the keys 
to the nuclear kingdom.
    The good news is that this early set of proliferation concerns 
never came to pass, probably for a combination of reasons: our 
programs' effectiveness, Russian preferences to remain within familiar 
social and political structures, patriotism, professionalism, fear of 
getting caught. So far as we know, there has never been a Russian A.Q. 
Kahn. The bad news is that US and international programs have not 
adapted to today's nuclear threat: terrorists' pursuit of nuclear 
weapons through theft of materials or weapons.
    This reality--combined with the elimination of two of the largest 
state-based proliferators in Iraq and Libya and the discovery that 
Iran's nuclear technology came from Pakistan, not Russia--fundamentally 
changes the way humans may contribute to nuclear threats. A decade ago, 
we focused on the scientists because they held the keys to developing 
the large-scale nuclear materials production and sophisticated weapons 
systems necessary to states seeking a sustainable nuclear arsenal. 
Today, we need to widen our scope to understand the role any employee 
at a nuclear facility can play in facilitating nuclear terrorism 
through access to nuclear materials, or to information about how such 
materials are handled at a particular site. Individuals at all levels 
know about storage venues and conditions, transfer schedules, security 
vulnerabilities, routines and procedures. This kind of insider 
information provided to an outside terrorist group can help them to 
acquire nuclear weapons and materials. This is today's challenge, and 
we are not yet rising to meet it.
    Russia's ten closed nuclear cities are host to hundreds of tons of 
highly enriched uranium and plutonium, and dozens of military bases 
house tens of thousands of nuclear weapons. Even if we were doing all 
we could from a physical protection point of view, the drastic 
shrinkage these facilities will experience over the next several years 
creates the potential for disgruntled, opportunistic, unprofessional, 
or blackmailed personnel at all levels to make their knowledge of or 
access to materials and weapons available to those who seek it. In an 
environment in which petty pilferage of toilet seats, cooking oil, and 
even small arms occurs on a daily basis, we should not assume that less 
educated staff will distinguish nuclear materials from other assets 
they may be willing to steal or reveal. In fact, it is more likely that 
a machine-tool operator or a maintenance worker would do so than the 
higher-level scientists. Yet many of our programs persist in their 
focus on scientists, and pay scant attention to the broader set of 
personnel who may pose nuclear risks.
    Current programs, effective in dealing with last decade's threat, 
often fail to take today's materials-and-weapons-based threat into 
account:
        <bullet> Many of those who are counted as ``engaged'' in 
        peaceful activities maintain their clearances and access to 
        sensitive facilities and materials.
        <bullet> Non-scientists are often not eligible to receive 
        funding from these programs.
        <bullet> Programs are not prioritized to address cities or 
        facilities with the greatest risk of materials diversion.
        <bullet> They do not address the risks posed by retired 
        military officers who continue to be housed (often unemployed 
        and perhaps alcoholic) at bases that store nuclear weapons.
        <bullet> Most programs have a high-tech, entrepreneurial 
        approach that leaves out middle- and lower-level employees.
    The solution to today's nuclear threats is this: sustainable 
alternatives for all types of employees set to lose jobs owing to 
nuclear downsizing. Existing programs, such as the Department of 
Energy's Russian Transition Initiatives and the Department of State-
funded Science and Technology Centers, will continue to be valuable 
components of a comprehensive approach, but taking these threats 
seriously would include the following changes or additions to current 
efforts:
        <bullet> Spin off non-weapons research or commercial activities 
        to locations outside nuclear facilities, so that staff employed 
        there no longer have awareness of or access to nuclear 
        materials and activities
        <bullet> Reduce current ``moonlighting'' practices by creating 
        full-time sustainable jobs outside institutes
        <bullet> Develop new techniques to reduce or redirect excess 
        staff, such as early retirement programs
        <bullet> Make educing total employment--especially of employees 
        with access to nuclear materials, weapons and related 
        information--should become the key measure of merit
        <bullet> Increase low(er)-tech job creation, and recognize that 
        it contributes to the overall mission
        <bullet> Support regional economic planning and development
        <bullet> Increase access to capital for small-business start-
        ups and expansions
        <bullet> Incorporate relevant military personnel and sites into 
        personnel-related programs
    This approach demands greater funding, but even more important, 
broadened authorities for existing programs and linkages to traditional 
international development efforts, such as those carried out by the US 
Agency for International Development. Even though critics have 
dismissed the relevance of so-called ``soft'' programs, developing 
sustainable alternatives to weapons work is a critical component of 
reducing nuclear terrorism.
    Some small but instructive progress has been made in broadening the 
approach to unemployed nuclear workers, or those at risk of losing 
their jobs. US AID has recently changed its mind-set toward working in 
Russia's closed nuclear cities. Whereas in the past, US AID has by and 
large avoided cities where significant nonproliferation projects are 
being carried out, they now interpret their mission to include, and I 
quote from their own strategic goals, ``reducing the threat of weapons 
of mass destruction to the United States, our allies, and our 
friends.'' This has created interest at US AID in finding ways to 
target some of their ongoing programs in economic development and 
health, for example, to Russian cities dealing with large layoffs of 
nuclear workers. (Unfortunately, this realization comes at a time of 
shrinking US AID budgets in Russia.) US AID's existing cadre of local 
nongovernment organizations provides a ready base of expertise to work 
effectively in these new areas, and in the process, to become familiar 
with the unique needs of these cities. As part of US efforts to reduce 
the risks of nuclear terrorism, US AID should be encouraged, and 
funded, to expand its existing programs and develop targeted 
initiatives to contribute to the creation of sustainable alternatives 
to weapons work, including language and business training, local 
governance, housing, and civic infrastructure.
    A second novel approach has developed out of volunteer-based Sister 
City relationships. During the 1990s, several US and Russian towns 
involved in nuclear weapons activities became Sister Cities: Los 
Alamos, NM and Sarov; Livermore, CA and Snezhinsk; and Blount County, 
TN and Zhleznogorsk. Citizen-to-citizen contacts have engaged schools, 
local officials, cultural leaders, and others in a myriad of exchanges, 
planning exercises, donations and other interactions. These cities have 
joined with other US-Russian Sister Cities where nonproliferation 
activities are carried out in an initiative known as Communities for 
International Development. Based on what these groups have been able to 
accomplish on pure volunteerism, they offer a solid platform for 
expanding federally funded activities in this arena.
    At NTI, we have factored these issues into our own project design. 
We have developed two projects intended to demonstrate new techniques 
for engaging weapons workers generally, especially middle managers, in 
the closed city of Sarov. One project involves a $1 million NTI 
contribution to an existing Russian revolving loan fund. This fund 
supports small and medium business generally in Sarov, and NTI's funds 
are targeted specifically to supporting businesses that provide jobs 
for workers coming out of the weapons institute. Our funds have 
supported three new businesses, provided over 70 new permanent jobs for 
weapons workers, and enough funds have been repaid from these 
businesses' success to permit investment in a fourth enterprise. This 
dollar-per-job-created compares very favorably with government-funded 
programs. Also at Sarov, NTI's funds will permit the hiring of two 
experienced marketing directors to promote SarovLabs, a contract 
research firm, to Western and Russian private sector clients. 
SarovLabs, formerly known as the Open Computing Center, provides part-
time jobs for some current weapons institute employees, but the rest of 
their time they continue to work at the institute. The goal is to bring 
in enough new business to create 100 new full-time positions that are 
sustainable enough to give former weapons workers confidence to sever 
their ties with the institute, which limits the risk they might pose to 
theft of materials or weapons. We believe these new approaches offer 
models that might be built on to more fully address these nuclear 
terrorism risks.

The Day After
    At NTI, we frequently ask ourselves, our elected representatives, 
and our fellow citizens of the world: the day after a catastrophic 
instance of nuclear terror, what will we wish we had done to prevent 
it? Why aren't we doing that now? I've done my best to offer some 
answers to the first question. The second question has no good answers. 
The time to act is now.

    Mr. Linder. I have got a few questions, and then we will 
move around the panel. We are about to have a vote in the next 
15 or 20 minutes, so we will get as much out of the way before 
that as possible.
    We have made a good bit of progress identifying and 
containing Russian-manufactured fissile material and weapons. I 
have two questions. What are we doing about Pakistan--for 
Ambassador Lehman, I guess. And how many nations can you say in 
open session that we know have stockpiles?
    Mr. Lehman. First of all, Mr. Chairman, on the question of 
how many stockpiles, I think--you mean fissile material itself? 
I have got--I think David has probably got the exact number 
from the IAEA. But it is a sizeable number, although many of 
them have material in, say, for example, research reactors that 
is a fairly small amount. Nevertheless, it is a cause of 
concern.
    On the U.S. Government efforts to engage Pakistan, 
obviously there is a lot of sensitive discussions, and I am not 
the right person to talk to about that. But in general, there 
has been a major effort both in the public with NGOs, Members 
of Congress, and the executive branch to persuade the 
Pakistanis that controlling both their weapons and their 
material is a very high priority. But, as you know, we have 
this long history of A.Q. Kahn activities that show how very 
difficult it is to be sure that governments or even government 
entities are doing the right things.
    Mr. Linder. Are we better prepared now to see any 
indication of similar networks operating?
    Mr. Lehman. Well, there is good news and bad news. The good 
news is we are better prepared. The bad news is that the 
networks are getting more and more complex because there is 
more and more technology floating around. And when you have the 
kind of outsourcing activities that are so typical of economies 
today and business activities today, it is very hard, even with 
the most wonderful data management systems, to really get a 
good picture of what happens. And remember, every time we have 
a success and it goes public, the terrorists learn what not to 
do next time.
    Mr. Linder. Mr. Albright, you commented on all the things 
the United States has been trying to do around the world to 
locate and nail down this material. Are other nations helping? 
Are we the only Nation that is interested in this?
    Mr. Albright. No. Many nations are part of it. I think the 
United States is the leader and has been for over 20 years. I 
mean, I think we faced our problems. We had weaknesses in 
physical security in particularly our old nuclear weapons 
product complex, and that, combined with increased concern 
about proliferation, has led to a very aggressive leadership on 
this area. And certainly it would be better for countries to 
contribute more. I think there is a desire that Russia 
particularly would buy into physical protection more. I mean, 
it has certainly been willing to accept money and make 
improvements, but I think that there is still a sense that they 
are not--their culture hasn't changed enough where they really 
deeply believe in the need for physical protection and realize 
the risk of the terrorist nuclear weapons.
    Mr. Linder. What is the source of the least protected and 
the most vulnerable fissile material in the world? Is it 
universities? Is it hospitals?
    Mr. Albright. Well, I think overall it is--you can't 
generalize. I mean, you could--I think traditionally there has 
been a sense that on the civil side, that there is less 
protection. But in a way, the adage of the squeaky wheel gets 
fixed has played a very large role and created a situation 
where there are many places that have excellent physical 
protection, and then there are others that have escaped 
attention. And that is essentially what happened in Russia 
until the end of the Cold War, was not adequate to deal with 
the threat posed by the collapse of the Soviet Union. They 
hadn't created these internal systems that really could work 
well.
    Mr. Linder. Let me ask Ms. Holgate. You said so far we have 
not seen a Russian A.Q. Kahn. Do we think there might be one 
out there?
    Ms. Holgate. I think if there existed one, that he is 
already gone--or she. But I think the folks who are there have 
been remarkably loyal, remarkably patriotic, and frankly they 
are not all that interested in helping some of the countries 
that we have been most concerned about in terms of 
proliferation.
    Mr. Linder. What percentage of their material have you 
identified?
    Ms. Holgate. Well the Department of Energy's figures are 
the ones we have to go with here. And the Department of Energy 
is focusing on providing material, protection, control, and 
accounting upgrades on 600 metric tons of highly enriched 
uranium and plutonium inside Russia. Now, those are at--mostly 
at some of their major bomb-making factories. What is clear 
about that is that that number is a dynamic number. It changes. 
And we don't know exactly what is happening to the material 
that moves into that 600 figure and the material that moves 
out.
    We also know that Russians themselves, Russians have told 
me in my work with them at NTI that some of their civil 
facilities, they don't have high-quality accounting at those 
facilities. And so I think the fundamental answer is not only 
do we not know, but there is an excellent chance the Russians 
don't know.
    Mr. Linder. Thank you. My time has expired.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Ms. Holgate, following up on your last point there with 
respect to locations where there may not be weapons-grade 
material, but at more peaceful sites used at nuclear facilities 
for producing energy. To what degree do we need to worry about 
that material? And we have been focusing a lot on weapons-grade 
plutonium, highly enriched uranium, but how great a security 
threat is using nuclear material from a reactor a threat?
    Ms. Holgate. Well, let me just make a distinction between 
nuclear power reactors for producing energy, the vast majority 
of which use low enriched uranium which poses next to no 
proliferation threat. The civil reactors I was speaking of are 
research reactors, which use highly enriched uranium, something 
over 20 percent, and some of them use uranium as much as 90 
percent. Anything over 20 percent the IAEA says you can make a 
bomb with, and that is concerning. So I would say that category 
of civilian research reactors or critical assemblies or other 
types of research facilities that may simply have material are 
much more to be concerned about than any kind of a civilian 
power plant.
    Mr. Langevin. In your testimony, you state that the key 
requirement for a terrorist to become a nuclear terrorist is to 
obtain nuclear material. The National Intelligence Council, as 
you are well aware, issued a report in December of 2004, which 
states: We assess that undetected smuggling has occurred, and 
we are concerned about the total amount of material that could 
have been diverted or stolen in the last 13 years.
    Now, this concerns me since we have had nonproliferation 
programs in place over the last 13 years. And now, I do believe 
that things have improved in Russia, but what are the three 
things that you think our government has to do now to ensure 
that future reports from the Intelligence Community will not 
continue to say that undetected smuggling is occurring? And 
within that, I would like to know your thoughts as to--and the 
other panelists as well--why we haven't had a Russian A.Q. 
Kahn. That, to me, is just counterintuitive.
    Ms. Holgate. Well, I am less surprised that we haven't had 
a Russian A.Q. Kahn than I am that we haven't had some of these 
more low-level petty pilferers. And that is when you see the 
smugglers we have caught. It is not scientists, it is the 
seaman who happens to have access to the material at the naval 
base. You know, it is a worker who sees stuff that he thinks 
might be valuable and he goes and he hides it under his bed, 
sometimes at great damage to himself and his family. Those are 
the people that have been getting caught. And thank goodness 
they haven't had either the quality or the quantity of material 
relevant from a bomb perspective. It is only--it may only be a 
matter of time. And I share the concern over the intelligence 
statement about we don't know how much may have been stolen.
    I tend to believe that if it had made its way from a 
pilferer to a terrorist group, we would have seen its use. So 
my only hope is that to the degree that it has gone missing, it 
is stuck in that netherland between how those pilferers might 
connect to an outside group. We may not yet have seen the kind 
of targeted outsider, you know, working with the dedicated 
insider to try to capture specific material in connection with 
a bomb; but that is what I really worry about at these large 
sites with large quantities of material.
    Mr. Langevin. The A.Q. Kahn case is disturbing to me in 
terms of the scope of its operation and the nations to which he 
provided nuclear secrets. The Congressional Research Service 
reports that Kahn sold blueprints, centrifuge assemblies, 
uranium hexafluoride feedstock, and, worst of all, nuclear 
weapon designs.
    Now, one of the purposes of this hearing is to determine if 
there are any indicators for such terrorist activities. Now, 
understanding that intelligence is going to be the best 
indicator that we have, what are the lessons learned from the 
Kahn case? And how can we catch a terrorist trying to obtain 
the bomb? And, by the way, in my opening statement I asked you 
to address, if possible for the panel, what surprised you about 
the Kahn case? What caught us really off guard other than it 
happened in the first place?
    Ms. Holgate. I will defer to my colleague, Dr. Albright, on 
the Kahn issues as he has done a lot of research on that.
    Mr. Albright. What surprised me about the A.Q. Kahn case 
was twofold: One is that they were in the end peddling an 
entire gas centrifuge plant. They would have been able, if 
finished, to make many nuclear weapons in a year. So typically 
that is something countries or very advanced industries in 
developed nations do. So that was the first surprise.
    The other was is that he was providing to Libya, or 
provided to Libya a very sophisticated--from a proliferance 
point of view, crude but somewhat miniaturized--implosion 
weapon design and the manufacturing instructions to make the 
actual components. And so I think those are the two big 
surprises.
    I would say, though, that you can't compare--it is not 
useful to talk about A.Q. Kahn and Russian fissile material. I 
mean, A.Q. Kahn and his network evolved out of a over 20-year 
illicit procurement effort to arm the Pakistanis with nuclear 
weapons, and then at some point in the 1980s they decided to 
turn it into an export operation. And so it is a very different 
phenomena than what we have been talking about, about fissile 
material controls in Russia.
    But I would say that Russia is not going to come off scott 
free. I mean, there has been a lot of exports of equipment 
technology out of Russia in the missile area. We don't know for 
sure on the nuclear area. But their export control system, 
which is really what A.Q. Kahn was exploiting and undermining 
in various nations, has been very weak. And they had horrible 
problems in implementing effective export controls. And so 
someone may emerge in Russia who turns out to be a major 
supplier to a country's nuclear weapons program.
    And in terms of helping terrorists, we may still see that, 
particularly on the side of weapons assistance, equipment to 
make nuclear weapons. You know, I hope to God we don't see it 
on fissile material, but I think all three of us are saying 
that that is also a possibility.
    Mr. Langevin. Thank you. My time has expired.
    Mr. Linder. Thank you. Chairman Cox.
    Mr. Cox. Thank you, Mr. Chairman. I want to thank our 
witnesses for excellent prepared testimony and excellent 
support thus far during this hearing. We are very pleased to 
have you today.
    The reason that we are focused on the prevention of nuclear 
attack is that the prospect of cleaning up the mess afterwards 
is so dismal. Obviously, we are going to spend resources and 
plan for response and recovery for any kind of terrorist 
threat. That is unavoidable. But with some kinds of terrorist 
threats, such as blowing up buildings or setting fire to things 
or using conventional explosives, the prospect of recovery is 
much easier to imagine than these high-consequence events, such 
as terrorists getting their hands not on a dirty bomb but an 
authentic nuclear weapon, which is what we have been discussing 
here today. The priority, therefore, on prevention I think is 
well placed, and we really appreciate your helping us walk 
through this.
    My understanding is that our screens are not going to be 
able to put up this chart. Or we can? This is the chart, Mr. 
Albright, that you included with your testimony. I just--is it 
possible to enlarge that? Maybe we can scroll up and down it. 
Or is that all we are going to do? All right. Well, that is as 
good as not having it up, because nobody is going to be able to 
read that. But I will just refer to it. It is in the formal 
written record.
    This is a great diagram, Mr. Albright, that you prepared 
for us that we all understand is notional. Terrorists don't 
have to follow this flow chart to put together nuclear weapons; 
they can follow their own plan. But this is based on some 
reasonable assumptions.
    I just want to walk us through this and see whether or not, 
given that the subject of today's hearing is identifying 
earlier indicators of terrorist activities, how we might focus 
our efforts at each one of these stages, the earlier the 
better, to learn sooner than otherwise might be the case that 
something is going on.
    The role of the Department of Homeland Security, I should 
mention parenthetically here, is to help us to knit together 
some of the information strands. When Mohammed Atta was pulled 
over just shortly before 9/11 by a Florida State trooper, the 
Florida State trooper didn't know that he was a person of 
interest to the CIA and to the Treasury and to FAA. We all know 
from reading the 9/11 Commission report all the information 
that we didn't use, and one of the reasons that DHS is there is 
to help us, through the Information Analysis Office, not make 
that mistake again. We have NCTC, we have a lot of fusion 
systems that we are putting in place now that weren't there 
prior to 9/11. Let us focus on how we might look for certain 
kinds of information, and try and piece it together to prevent 
nuclear terrorism before it happens.
    The first thing, Mr. Albright, on your flow chart is that 
terrorist leaders identify vulnerable stocks of plutonium or 
HEU. And I might add at this point I think it is probably a 
safe assumption to think that the more likely of those two 
scenarios is HEU because it is more likely, as you said, Ms. 
Holgate, in your testimony, that we are going to be looking at 
a gun-type device, not an implosion device. Let us ask 
ourselves whether--is there anything that we might be looking 
for at that moment? Or is that too early?
    The next thing is, we are going to have meetings and 
communications to arrange the acquisition of fissile material? 
Following that, we locate the fissile material, and we divert 
it or steal it from an inside operation, or just break in and 
get it, apparently. After that, we have to move it. The early 
aspects on this are meetings of terrorists with themselves. I 
take it that would require, say it again, listening to what 
they are doing or having some infiltrator in there. But 
ultimately they get to actually building this weapon after some 
transit for the materials. They have manufacturing sites, they 
have got an integration site.
    My time is quickly running down here, so I am going to try 
and load this all into one question for the whole panel here. 
But using this chart--do the witnesses all have a copy of this? 
If not, we will hand it to you because it didn't pop up on the 
screen as well as I had hoped. I know that at least Mr. 
Albright has it, because it is your chart.
    And then, of course, the last box is detonation of the 
nuclear weapon. I don't think we want to catch it just then. 
Although I did see on an episode of 24 that after they launched 
the missile with the nuclear warhead, that somehow they stopped 
that all from happening. Probably not in real life. Probably we 
ought to be looking at the top of this chart.
    So can you help us interpret this chart and turn it into 
actionable kinds of work that intelligence gatherers and 
analysts could do if we are putting this priority on 
prevention?
    I will start with Mr. Albright, but all three of you are 
richly equipped to help us answer this question.
    Mr. Albright. I think I tried to emphasize the two places 
where we can take steps to increase the chance of detection. I 
mean, concrete actions that will lead to a higher probability 
of detection, namely at the locations where fissile material is 
stored, and then trying to detect illicit procurement of 
equipment.
    The others, there is certainly a lot of things that can 
happen. And I am not sure it is suitable for an open hearing. 
Certainly I am not encouraging a closed one. But there are a 
lot of things that go on to try to intercept communications. 
And you can actually take this and do a much deeper analysis, 
looking at what kind of specific activities happen at each of 
these boxes, and then try to increase your ability, 
intelligence agencies' or communities' ability to detect that 
the terrorists are trying something.
    So I think it is--the trouble along some of the steps, like 
when the terrorist leaders meet or when there are things that 
are in transit, there is a certain luck to it all. And if we 
are short of human sources within these terrorist 
organizations, then it is hard to have a high chance of 
detection, although I think it is important to do and to 
certainly increase our ability to penetrate these groups.
    Let me just stop there. I don't want to take too much time.
    Mr. Cox. Ambassador Lehman?
    Mr. Lehman. I would make two additions to the chart, but 
not with the intent to help the terrorists. But one is, David 
uses the word ``sites'' in plural, and I think he is right to 
emphasize that. One of the awkward words of modern industry is 
disintermediation. But what it really means is the flattening 
of the pyramid of organizations. And I think that what we are 
likely to see is that the activities will take place at a 
number of different sites.
    Now, obviously, when you integrate the bomb, as David's 
chart points out, at some point all of the necessary things 
need to come together. But I think if you are looking for a 
plant where they do all the nonfissile material components, I 
think you are not likely to find one. I think you are going to 
find that bits and pieces are done in a lot of different 
places. And the people who will be doing some of that will be 
honest people who have no idea why they are doing this other 
than they got an order.
    The second point that I would emphasize is the box on 
nuclear weapon designers or designs. And of course that, you 
know, knowing what it is you are going to build is terribly 
important, and it may not be as easy as some people think.
    Having said that, I think I would share Laura's emphasis 
that the knowledgeable people that the terrorists may need may 
not be the designer. It may not even be someone who is 
particularly technically adept. It depends on where they are 
and how they are doing the process. I think--and this is the 
theme of my prepared remarks--is that we have got to recognize 
that in order to get the material and assemble it, if that is 
the path they take, other than stealing a weapon, they need 
some knowledgeable people. Some of those have to be 
technologically savvy, others not so much so. But they need to 
get access to those people. They are going to go fishing in 
those waters. We, or somebody friendly to our interests, needs 
to be sailing in those waters. We need to have the prospect 
that the ships will pass and we will see.
    Now, the bad news is it is a big world, a big ocean out 
there, and it is hard to see. The good news, as I think David 
and Laura have emphasized in their remarks, is there are places 
where the ships keep coming. Obviously, focusing on fissile 
material and its locations is a terribly important thing, but 
there are other worlds out there where these ships have to 
sail, and we need to have somebody watching those waters. Thank 
you.
    Ms. Holgate. I guess the only thing I would add to that is, 
building on your comment about the 24 episode the other day, is 
that NTI has actually taken a pathway similar to this and 
transformed it into a film, which is available free to anyone 
who logs on to Our Last Best Chance dot org Web site. It stars 
Fred Thompson, a former colleague of all of yours, as the 
President, and shows how governments and people deal with these 
steps as they watch them unfold and what we can and cannot do 
at various stages. So I will just commend that to folks for 
their entertainment and education.
    Mr. Cox. Thank you very much, Mr. Chairman. Perhaps we 
should link our Web site to that.
    Mr. Linder. Not a bad idea. Ms. Norton.
    Ms. Norton. Thank you very much. In this area I am 
particularly struck by how all of the assumptions about 
proliferation changed since 9/11, or should have. We were 
dealing government to government, we still have a great deal of 
work to do government to government. And if we shored that up, 
and we are very far from that, we will have gone some distance. 
But, of course, as we look at sites, known sites, we then have 
to speculate about sites and sites that are not even regarded 
as sites, sites where--scientific sites. And so the who and the 
what is part of the proliferation, leading, I must say, to, at 
least in the general public, wild speculation about the 
possibility of attack, what form it would attack, how people 
should prepare. And the difficulty goes from not knowing about 
whether or not, about--not knowing about the sources of fissile 
material to who really has the expertise to do what would need 
to be done.
    I frankly have a--I have two questions. One isn't really 
about the a A.Q. Kahns of this world. It is really about larger 
pool of scientists, highly trained scientists. One of you 
answered something about--several of you talked about helping 
the terrorists. I mean, what that suggests is that you don't 
have to be a fully-blown scientist who worked in the nuclear 
field to follow the steps and learn what you have to learn.
    And that is my first question, is--is given the huge pool 
of people who are trained, given the number, given how much of 
this is driven by religious zealotry, how likely is it that 
some highly trained scientist could indeed be the source of 
expertise for Al-Qa`ida-type groups, learning himself, self-
taught, learning in the way that scientists today can learn 
about this field? What is your sense about the possibility that 
whoever might help to produce a weapon for terrorists might not 
come from the usual sources, but might come from the large 
number of highly trained scientists throughout the Arab world, 
the Muslim world? Is that, is that likely or is that simply--or 
would that take too long and not the most likely way in which 
such a weapon would be produced?
    Mr. Lehman. Obviously the easiest path is to follow roughly 
the path somebody else has taken. So I think the hardest way 
for a terrorist to get to a nuclear weapon is to go back to 
basic physics and try to--
    Ms. Norton. Yeah, but I am not talking about basic physics. 
And that assumes that, you know, the only folks who really 
understand this have been the ones in these who have been 
working, such as the Russian scientists. I am talking about 
highly trained scientists that we know existed in places like 
Iran and other places who may not have had access to the 
laboratories in question.
    Mr. Lehman. And I think that is a very good point in that 
we need to understand that the expertise is not just in a few 
places on the globe. It is incredibly widespread. But even some 
of the finest Nobel Prize winners don't know how to fix their 
own radio. They need a team of people who can do such things. 
And, unfortunately, if the terrorists already have components 
or have material or have certain things already predigested, 
presolved for them, then the people they need may turn out to 
be at a lower level of knowledge, and they only need to be so 
competent. And the message is that there are more and more of 
those people all over the world.
    But you have also raised, I think, a very important point, 
and that is that there is a tendency to think that nobody in 
the scientific community really would ever help these people, 
and I like to think that the scientific community is at least 
as good and as honest as everybody else. But the history of 
science is filled with scientists who became criminals or 
associated with terrorists. Indeed, bin Laden's deputy is a 
medical doctor. Medical doctors take oaths to save lives. We 
have to recognize that we can't simply assume that, because the 
number is small, that the number is zero. It is a large and 
growing pool. And even though the percentage is very small, the 
absolute number could be dangerous, and that is sort of where 
we think it is, that there are people out there. Thus far, our 
success has been that the people who want that knowledge and 
the material have not been able to meet up in the right way 
with the people who want to use it. And that is where we have 
to focus our efforts.
    Mr. Linder. The gentlelady's time has expired.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. I want to thank you, 
Mr. Chairman, for an excellent panel and for holding this 
hearing, and say first to you, Ms. Holgate, your comment, no 
nuclear material, no nuclear threat, speaks to me. Because in 
my work as Chairman of the National Security Subcommittee, both 
in Russia and visiting our labs, there is no doubt in my mind 
that terrorists can build a nuclear weapon. And to suggest 
anything other than that I think would be to really fool 
people.
    True, they can't--and if you disagree after what I am 
saying, I want to hear it. Terrorists may not be able to build 
a sophisticated weapon that can go in a missile. They can't 
reduce by a pound and give us the ability to put more missiles 
on the warhead. But they can take, it seems to me, a very crude 
tube with enriched uranium, even trying more than once to 
create the impact, they can blow it up. And it seems to me the 
only question is, it won't be dependable, they may have to try 
a few times, but they don't care if they go up with it. The 
yield will be inefficient. And they are ultimately going to 
have to commit suicide in the process. But none of that would 
deter them. So what have I said that you would disagree with? I 
would just like to start with you, Ambassador.
    Mr. Lehman. I think I basically agree, it can be done. And 
the only thing that I would like to emphasize that we really 
need to put a tremendous emphasis is on securing fissile 
material.
    Already we don't know if it is all going to be in the 
places we secure, and we can put the best locks and systems on 
a facility, but if the man who runs the facility is the person 
who can unlock the door, then there at least is always a 
potential vulnerability.
    Because of the concern about biological weapons, chemical 
weapons, other types of terrorism, we need a dynamic strategy 
in any case, and I think it ought to be synergistic with our 
efforts to counter nuclear terrorism as well.
    You are going to need a dynamic defense in depth.
    Mr. Albright. I agree.
    Ms. Holgate. I wouldn't disagree with a thing you have 
said, sir.
    Mr. Albright. Can I say one thing, sir? I agree with you, 
but I think if you study, particularly proliferant state 
nuclear weapons programs, they really are starting, as 
Congresswoman Norton talked about, starting from scratch. They 
may have some nuclear training but very little, and they are 
having to learn the ropes. They run into problems and I am not 
saying this to downplay the threat. I am saying it so that we 
don't write this off, that we just, oh, okay, don't worry about 
it, it is a given, they can make a bomb. They actually need to 
do certain things to make a bomb and some of those things are 
detectable, particularly if we increase our efforts in certain 
areas.
    Mr. Shays. And I should be hearing that point about being 
detectable, but the bottom line is you don't need instruments 
that are hard to get. The material is pretty basic if you are 
willing to have a low yield, and, I believe, enriched uranium 
explosion. If it is plutonium, does the weapon need to be more 
sophisticated?
    Mr. Lehman. Yes.
    Mr. Albright. Yes. The tradeoff is you need a lot more 
material for a gun-type device.
    Mr. Shays. But even if it had one-tenth the yield of 
Hiroshima, it still would be a nuclear explosion, correct?
    Mr. Albright. It would be devastating.
    Mr. Shays. Okay.
    Mr. Albright. If it is detonated in a city, for example.
    Mr. Shays. Right. But your point to me, that I am trying to 
make sure I am listening to, is that even containing the 
weapons-grade material doesn't mean--under Nunn-Lugar doesn't 
mean it is going to stay there. And your other point that I 
think I am hearing is we may contain what we know, but we may 
not be containing what we don't know. I mean we won't be.
    Your last point--you know what, that is fine. I am done. 
Thank you, Mr. Chairman.
    Mr. Linder. Dr. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. I have one 
question and I am sorry I missed the testimony. I tried to skim 
through it, but a lot of the focus seemed to have been on 
fissile material in other countries, and some of the 
protections I have read are anywhere--I think the quote is from 
appalling to excellent--the protection of the facilities that 
may house this material. And I was just wondering, looking at 
the facilities in this country that might house fissile 
material, how would you rate our protection of that critical 
infrastructure?
    Mr. Lehman. I think that we may be the world's best. The 
question is, is best good enough? We constantly need to test 
our own systems to see where the vulnerabilities are, because 
you can spend a lot of time addressing one kind of scenario, 
one threat; you can spend a huge sum of money and then discover 
there is this other problem. So you need to be agile and 
dynamic in testing yourself.
    But there is another good reason for testing on yourself 
and that is that you can then get a feel for where weaknesses 
may be elsewhere, where there is even greater risk and perhaps 
use that information to help.
    So it is always good to take a good strong look at 
ourselves, but in the end, there is only so much money and so 
you have to kind of allocate where you really need to put the 
priorities.
    Mr. Albright. I think there is a principle at play here 
that it is similar to protecting money in a bank. I mean, you 
can't become complacent. It is an ongoing struggle and the 
United States has had problems in the past, some in the not-
too-distant past, and so it is something you have to worry 
about, what Ron said about the money often becomes the critical 
factor.
    I know in the nineties, senior Department of Energy 
officials told me to get the money to help the Russians, they 
had to take it from some of the security accounts for U.S. 
facilities. And that created its own problems.
    Ms. Holgate. The only thing I would add to what has been 
said, I would certainly echo the notion that U.S. government-
run weapons-related nuclear facilities are among the best in 
the world. Civilian facilities, however, may be a different 
story. When you are talking about a highly enriched uranium in 
a university research reactor in the middle of a city where the 
guard force may be the local campus cops, where you have a 
constant flow of graduate students through, I think there is a 
lot of improvement that can be done in security there; or when 
the tradeoffs, as was pointed out, between security and funding 
becomes unmanageable, given the research that is being done 
there, given that it can be done elsewhere or done with 
nonweapons-usable material, I think that is a big caveat to 
what has been said so far.
    Mr. Linder. Thank you. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman, and to our 
witnesses, welcome. Thank you for your testimony. It has been 
very enlightening for this committee as well.
    When we look at this diagram that we have talked about, the 
Chairman or Mr. Cox talked about--this diagram--in there is 
nothing about the design. It starts with fissile material, it 
looks like, and then goes down to finding fissile material 
first and then construction. The design of such devices varies 
but you can find them on the Internet. This is not your rocket 
science-type project where you need an A.Q. Khan physicist to 
be a designer. You can construct a crude device off the 
Internet if you can find it on the Internet.
    But that still doesn't answer the question about espionage 
for the design of more sophisticated devices wherein back in 
the early part of the decade, last decade, we saw the W-88 
diagrams had been stolen from the United States and ended up 
in, I believe, North Korea.
    But I guess my question is this. At the end of the decade, 
when the Soviet Union was breaking apart, there were a number 
of weapons allocated to each of the various divisions of 
Russia, whether it is Bulgaria, et cetera. When that broke up, 
there was a poor accounting of all of those weapons, including 
what some have called and our colleague from Pennsylvania Mr. 
Weldon has said that there were a number of suitcase-size 
weapons in that former Soviet Union that are unaccounted for.
    Now, do you believe in your research that any of these 
weapons may or may not be on the black market or have passed 
through the black market to anybody who is a terrorist?
    Ms. Holgate. I think it is fair to say, sir, that at the 
breakup of the former Soviet Union, that all of the warheads 
that had been in Ukraine, Belarus, and Kazakhstan--.
    Mr. Gibbons. We are not talking warheads here, not warheads 
off a missile. I am talking a suitcase-size device.
    Ms. Holgate. The tactical weapons, the information we had 
at the time was that Moscow detected a weakness in its 
periphery even before the Wall fell, and they began pulling as 
many tac nukes, including suitcase bombs, back into Russia 
proper as they could.
    Now, there has never been the kind of accounting, as you 
point out, there has been on the missile-launched warheads, and 
there has not been the kind of transparency because they have 
never been governed by any kind of an arms control treaty. And, 
as I am sure you have seen, when you ask your friends in the 
Intelligence Community, how much do the Russians have, you see 
these giant arrow bars because nobody really knows and we worry 
the Russians don't know.
    I would say, however, that this suitcase nuke thing is a 
little bit of a red herring. The point is there may be tactical 
nuclear weapons missing and those are the things to worry 
about, but the specific scenario in the suitcase environment 
for those who have looked into that research has not turned out 
to be quite as stated by General Lebed in the mid-nineties when 
that was such a scandal.
    Mr. Gibbons. In your studies or any of your studies in this 
problem, have any of you come across information, intelligence 
or otherwise, that say on the black market there are parts that 
can be acquired on the black market that would allow for you to 
construct a simple, crude, nuclear-style device?
    Mr. Albright. Parts. The first response is I have seen 
plenty of information that terrorists have nuclear weapons, 
that they were bought in Russia. We have never been able to 
confirm any of that information and never found, in fact, 
evidence to support it. And in terms of components, we have 
seen reports of components being sold but not that we have seen 
that are credible in the sense that it is a nuclear weapons 
component advertised for sale.
    If I can step back to this thing about the knowledge 
spreading, we cannot find what we would call a nuclear weapons 
design that would be usable to make a nuclear weapon on the 
Internet. When we have done searches, what we tend to find is 
information that in some ways parallels what the U.S. has 
declassified, and when there are key questions that remain 
classified, or information, we tend not to find it on the 
Internet.
    Let me just end it by saying the situation could get much, 
much worse, for example, if A.Q. Khan's bomb design shows up on 
the Internet.
    Mr. Gibbons. Well, let me ask one brief question, because 
you say if these terrorists had a weapon--and you have no idea 
whether they do or they don't at this point in time--if they 
did, why do you suspect they haven't used it?
    Mr. Albright. I mean, there are some who don't accept the 
statement that if they have it they will use it right away. 
Again, I don't know of any evidence that they have it, but they 
may be holding it back to use in some ways as a nation may use 
a nuclear weapon: to extort concessions, to intimidate, to--in 
the case of Afghanistan and Pakistan, pre-Taliban, or during 
the Taliban era, certainly there was a theory about conflicts 
developing between what they would call the Jews and Crusaders 
versus the Muslim world, and they needed nuclear weapons to 
prepare for that.
    So I think there is a lot of thinking in some of these 
communities that may not be just saying we will get it and we 
will rush to the United States. I mean, they may be thinking, 
in fact, a little more deeply, and I believe they will use it 
in some way if they have it, but it may be in a more 
complicated way.
    Mr. Gibbons. Thank you. Thank you, Mr. Chairman.
    Mr. Linder. The circumstance on the floor is that we are 
going to have a series of votes and motion to recommit that 
might take as much as an hour. So if Mr. McCaul would like to 
inquire, and I would ask Ms. Harman and Mr. Markey to submit 
any questions in writing, would the panel be satisfied with 
answering that?
    Mr. McCaul.
    Mr. McCaul. No questions.
    Mr. Linder. We will then adjourn this.
    Mr. Markey. Mr. Chairman, people like me are put in a very 
difficult position. On the one hand, the majority has ruled 
that we cannot make opening statements, and as a result, the 
people who are sitting in your chairs make opening statements 
and you also get to ask questions. And then people like us, who 
have intense interest in these nuclear issues, are then left at 
the back of the line with important questions that have 
remained unanswered and then asked to allow a hearing to end 
without us ever having uttered a word.
    And so I would object to the ending of this hearing so that 
the Members who really believe that you are now talking about 
the most important issue in the world are given an opportunity 
on this subcommittee, which is my principal selection, to come 
back and to ask the members of the witness panel these 
questions.
    Mr. Linder. Had you had been here when it opened, you would 
have been the first person to ask questions.
    Mr. Markey. After you, after the Ranking Member, and again 
that is impossible to know.
    Mr. Linder. We are not going to ask our guests to sit 
around for an hour while we complete our votes.
    Mr. Markey. Let us ask our guests if they would want to 
wait around or not. Would the witnesses object to waiting 
around an hour? I see no objection.
    Mr. Linder. This hearing is recessed.
    [Recess.]
    Mr. Linder. I want to thank our witnesses for staying 
through that recess, about an hour, and we have some more 
questions for you. We expect another vote in probably half an 
hour.
    Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman very much, and we thank 
you, Chairman of the full committee, and we appreciate you, Mr. 
Linder, returning for this opportunity, and I know that there 
are other members who are going to be coming back now. I have 
been trying to notify them out on the floor that they are going 
to have this opportunity. And I appreciate the witnesses for 
sticking around. We thank you very much.
    Now, as we know, the Little Boy nuclear weapon which had a 
13-kiloton was actually never tested before it was detonated in 
Hiroshima, and we also know that Howard Moreland, when he 
published how to build a nuclear bomb in the Progressive 
magazine, and Jimmy Carter tried to get a restraining order 
against it, that the courts just ruled it is not proprietary 
information; every kid who is majoring in physics in schools in 
the U.S., half of them from overseas in our colleges, already 
have access to that information. So it is not a secret how to 
build a nuclear bomb, and obviously that was printed and anyone 
can get the designs as to how to build a nuclear bomb.
    In fact, prominent physicists have said that you don't even 
need a nuclear device to get an explosive yield; that simply 
one piece of weapons-grade highly enriched uranium on another 
could create a critical mass and a bomb that could kill 
thousands of people. Of course, that would be suicidal, but we 
know that these terrorists are suicidal.
    The Bush administration is currently in the process of 
approving a new uranium enrichment facility in New Mexico. Do 
you think we need to produce more HEU when there is so much of 
it in the former Soviet Union just waiting for us to pick up?
    Mr. Lehman, do you support or oppose the construction of 
that facility in New Mexico from a nonproliferation 
perspective?
    Mr. Lehman. Congressman Markey, I am here testifying just 
on this broader issue of nuclear terrorism. Whether or not we 
build a particular facility, it is incumbent upon us to make 
sure that it is absolutely secure.
    Mr. Markey. I am just talking about the signal we are 
sending to the rest of the world as we are telling them that 
they should not have highly enriched uranium facilities, given 
the plethora that exists already.
    Mr. Albright.
    Mr. Albright. My understanding is it is not being built to 
make highly enriched uranium.
    Mr. Markey. It is not?
    Mr. Albright. It is just to make low enriched uranium. You 
may have more information.
    Mr. Markey. It is my understanding that it is highly 
enriched uranium.
    Ms. Holgate.
    Ms. Holgate. Well, without speaking specifically to that 
facility, I have to say I share David's understanding that it 
is a LEU production--well, centrifuges are centrifuges. They 
can be used to make LEU or HEU, but the purpose of it is LEU.
    But the more interesting point to your question about 
Russian HEU, NTI has just completed a study with Russian 
colleagues on how to accelerate the blend-down of Russian 
highly enriched uranium to perhaps use that additionally for 
nuclear power plants; and a counterintuitive fact about that is 
you actually have to blend that material, blend the 90 percent 
enriched material with 1.5 percent enriched blend stock. So you 
actually do need to have some kind of an enrichment capability 
even to get the power possibilities out of Russian HEUs.
    So I would say that those are not incompatible realities to 
have an enrichment capability in order to get the power out of 
Russian HEU.
    Mr. Markey. You said, Ms. Holgate, in your testimony that 
Russia thus far has not had its own A.Q. Khan. Yet the Russian 
Government has continued to sell nuclear facilities into Iran. 
It continues its nuclear and missile assistance to China, and 
while A.Q. Khan theoretically--although I don't believe it--was 
not tied to the Pakistani Government, here the Russian 
Government itself is engaging in reckless nonproliferation 
policy.
    Don't you think, for all intents and purposes, Vladimir 
Putin is the A.Q. Khan--I am being serious on this--in terms of 
his relationship with China and his relationship with Iran?
    Ms. Holgate. Well, certainly, the missile issues are apart 
from my personal knowledge, but I understand that is quite 
serious and quite clear that there has been some government 
connection, and obviously building a reactor in Iran is 
government-sponsored and they are up front about that.
    I would say Russia has been relatively responsible in that 
broad context, and they have insisted that any fuel used--any 
low enriched fuel that would be used in that reactor--come from 
Russia, and that the spent fuel go back to Russia. In the 
absence of indigenous capability for enrichment and 
reprocessing, a power reactor using low enriched uranium is the 
smallest component of a proliferation potential in Iran.
    Mr. Markey. Do you agree with that, Mr. Albright?
    Mr. Albright. Yes, I do. In terms of what she said about 
the--.
    Mr. Markey. I am going to go back to the Putin question. 
Could you characterize Putin's cavalier attitude towards the 
sale of these materials into China and Iran?
    Mr. Albright. Well, I can't characterize Putin's actions. I 
certainly worry a great deal about what Russia has been selling 
in these areas.
    Mr. Markey. Do you think these things can happen without 
Putin's acquiescence?
    Mr. Albright. I think they can, yes.
    Mr. Markey. Do you think there can be a sale of nuclear 
components into Iran without Putin?
    Mr. Albright. Well, the leader of Russia certainly knew 
about the deal in 95, and you will remember they were also 
going to try to sell an enrichment plant to Iran. So I share 
your concern about the Russia Government. But I do believe that 
there is also a great risk that under Russian law would be 
illegal exports that could be quite dangerous could leave 
Russia, and that could happen without Putin knowing.
    Where I would fault Putin and fault the Russian Government 
is that they are not trying to implement export controls to the 
extent they desperately need to.
    Mr. Markey. We thank you for staying around. My 5 minutes 
have expired. I would note, though, that under Rule IX of the 
House of Representatives, that each committee shall apply the 
5-minute rule during the questioning of witnesses in a hearing 
until such time as each member of the committee who so desires 
has had the opportunity to question each witness, and I am glad 
today that finally we are in compliance with the rules, and I 
yield back.
    Mr. Linder. Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman. I too want to thank our 
witnesses for their gracious willingness to stick around during 
our floor votes. We are going to be interrupted again, but as I 
said earlier, your contribution is very, very valuable and we 
very much appreciate you being here.
    When I last left off my line of questioning we had up on 
the screen the diagram, the flow chart prepared by Mr. 
Albright, and if you have all still got your copies of that I 
would like to keep our focus on that. Because what we are 
trying to do in this hearing is look for those pieces of the 
puzzle that will give us an early warning that terrorists are 
actually moving from a general interest in or willingness to 
use nuclear weapons to execution.
    As you know, Osama bin Laden went out of his way to obtain 
a fatwa in 2003, blessing Al-Qa`ida's use of nuclear weapons.
    Ms. Holgate, you mentioned in your testimony that we found 
nuclear weapons designs in the caves in Afghanistan. One month 
before 9/11, two Pakistani nuclear scientists were arrested 
because of links to Al-Qa`ida and the Taliban, and one of those 
had been a project director in the lead up to Pakistan's 1998 
nuclear test. The other one was with the Nuclear Materials 
Division in Pakistan.
    So we know that it wouldn't be greatly beyond the present, 
to get on to your flow chart here, and I want to think about 
what we might be doing to focus on those key indicators.
    First of all, we know that the fissile material itself is a 
sine qua non, so we are trying to watch that, and we have got 
all these global arrangements that we are pursuing constantly 
to secure fissile material, and by all accounts we are doing 
the best job right here in the United States at securing 
fissile material.
    In addition to tracking material, I am inferring from what 
I have heard so far during the hearing and your testimony that 
there are some people that we can focus on, and I want to see 
if I can drill down to that a little bit and understand exactly 
what kind of people we can focus on and how can we go about 
this. Since some of the expertise is required is not elegant 
but would require at least, you know, a basic college degree, 
let us say in certain areas, what can we piece together to make 
sure that we are focusing on the right group of people? And 
then beyond that, how can we track the intercourse, if there is 
any, between terrorists and such people?
    I guess, lastly, is the assumption in my question that this 
is a worthwhile approach, a valid one.
    Mr. Lehman. Mr. Chairman, let me offer sort of a way to try 
to think about this. One is that there are certain traditional 
paths down which countries that operate with this kind of 
material and this kind of technology go, and so obviously if 
you want to get into shipments of material, activities 
involving material, one way to do it is to go and look at those 
processes, those companies, URENCO, others, who are involved in 
the legitimate business trade, and then try to see where the 
anomalies are there; what is happening that doesn't make sense, 
making sure that people there are sensitive to keep an eye out 
for what may or may not be entirely legitimate activity.
    A second path, though, is to say let us suppose that the 
source of the threat is nontraditional. So, for example, right 
now we tend to think of a certain limited number of countries 
as having reprocessing enrichment capabilities and that we 
would like to see them cooperate and making sure that material 
is tightly controlled and limited and that the number is 
limited.
    One could imagine that a group of countries or, even 
theoretically, nonstate actors involving some kind of 
industrial organization, might decide that they want to have 
their own system. Okay. Right now that is still big bucks, a 
lot of talent, a lot of effort, and we would get indicators 
that they were recruiting certain people, buying certain things 
over time.
    The problem is that I keep coming back to this point that 
we need a more sophisticated way to think about the state, 
nonstate, and actor issue and what I will call the legitimate 
and illegitimate actor issue. They blur. They mix. So it may 
well be that your proliferator will need certain skills that he 
has already got. For example, it is quite common to hear people 
talk about machine tools and what kind of high-precision 
machine tools that would be necessary for making nuclear 
weapons. The problem is the tendency is to look at what we use 
in the nuclear weapons statements and forget that when we were 
actually making our first weapons it was a much simpler 
technology that is now widespread.
    So I think if we try to look, as I said in my earlier 
statement, for that illegitimate network or that other network, 
we have got to find ways to get people on the inside of that. 
For the legitimate network, we basically have to sensitize 
people to keep eyes out for anomalies, but in particular what 
we are looking for is the faster track in between, in which the 
illegitimate and the legitimate start to come together. That is 
kind of a vague answer but I am trying to give you a feel for 
how we might think about it.
    Mr. Albright. Let me add, because I agree with what Ron is 
saying, the easiest to talk about is on the fissile material 
side. The United States sends all kinds of people to Russia to 
work on this problem. There has been a problem that the 
information gained by those people hasn't been filtering into 
the Intelligence Community fully.
    I know they are taking steps right now to correct that, but 
there was a sense that of the people out at the sites learning 
things, learning about the adequacy of physical protection, 
learning to know the people and developing relationships with 
the people, is potentially important early warning for any 
problems that may develop; and yet that information wasn't 
really shared within the U.S. Government as it should be.
    When Ron has used--if I can take his analogy--the ship 
sailing into the right seas, that is important; and then we 
have to make sure that the information gained by that ship is 
actually communicated to the U.S. Government.
    And on the other areas, I mean it is part of what I was 
trying to do in my testimony and what Ron is struggling with 
and Laura is: Where can you intervene to increase the chance of 
detection? And that was part of the reason I wanted to generate 
this pathway and, in fact, using pathway analysis.
    Most of these things, it does appear you have to be lucky 
to catch a meeting happening, a cell phone conversation. Our 
intelligence agencies learn that a meeting is happening and 
they can put in listening equipment. Those things seem very 
hard to control. But on the fissile material, and, to a lesser 
extent, but on the manufacturing of the weapon, it seems that 
we can take steps to increase our chances that we will learn 
something. But we do need to have people there.
    And I would say under fissile materials side, I think we 
know what to do and it can--the U.S. can better share the 
information among its own agencies.
    On the export side of this, it is a little more difficult 
to know what to do. I mean, what I have seen personally is when 
company officials help you, it is remarkable what you find out. 
An example would be they get a tender from somebody where they 
can--in this case it is a country trying to get something, and 
they don't respond because they are responsible and they don't 
want to deal with that. But they then pass on the information 
to the intelligence agency of their country, and then that can 
be used to nail some of these illegal procurement networks that 
are going on. And I don't know the extent the U.S. does that, 
but it certainly is something to encourage, to try to have 
better relations with people in companies that may see some of 
these things that terrorists would try to buy.
    There is equipment--and Ron's point is very important about 
the technology level. They are not going to buy the most fancy 
computer in America when they control a machine to do 
something, but they will need to buy certain equipment, and the 
companies in some countries are set up to watch for anything 
illegal because of these catch-all clauses that if it ends up 
in a nuclear weapons program then that company is in trouble. 
So they sensitize their employees to be suspicious of their 
customers and then, in many cases, to share that information 
with their respective government.
    Mr. Linder. The gentleman's time has expired. Does Mr. 
Dicks wish to inquire?
    Mr. Dicks. Well, I want to thank the witnesses for being 
here today. This is obviously one of the most important 
subjects that our country faces, and there has been a lot of 
work done on this by the three witnesses. And there are some 
people who believe that if there was going to be this kind of 
an attack, that one possible way it could be done would be from 
a ship or a barge off the coast of the country. So they would 
have to construct this somewhere else and that that is a 
possibility.
    Have you thought about that issue, Ron? I know you have had 
a great deal of experience, and all three of you have had great 
experience.
    Mr. Lehman. Congressman Dicks, you are onto a very 
important point, which is there sometimes a tendency to think 
that the nuclear bomb that a terrorist would make will either 
be like a nuclear weapons state's bomb, or at least something 
like Hiroshima-Nagasaki, when in fact it may be a different 
kind of device. It may be much more inefficient. It may be very 
large, totally inappropriate for delivery, not only by missiles 
but maybe inappropriate for delivery by an aircraft.
    Well, then, how do they deliver? The answer is, as you have 
said, is you can put them on ships. You can put them on trucks. 
There are various means. I think this is something that the 
community has to keep an eye on is that if you are looking for 
the terrorist to meet your traditional standards of 
performance, efficiency, safety, cost effectiveness at the 
margin, you are asking the wrong questions.
    Mr. Dicks. Other witnesses want to comment?
    Mr. Albright. No. I agree with Ron, and particularly the 
terrorists are going to look for shortcuts. Terrorists may look 
to avoid using certain components that any state wouldn't 
naturally think to use, and that would simplify their job, but 
it may make their bomb much more inefficient and bigger.
    Mr. Dicks. The other issue, you mentioned we have to have a 
break in intelligence. One of the things that I have learned 
about intelligence is that it is one thing to gather it; it is 
another thing to analyze and act on it. And that is another 
concern, whether we can get people to see the issue or see the 
possibility and then to take action.
    Thank you, Mr. Chairman.
    Mr. Linder. Mr. McCaul wish to inquire?
    Mr. McCaul. Thank you, Mr. Chairman. I want to thank the 
witnesses for their patience in sticking around till we 
finished our votes.
    The Al-Qa`ida has stated publicly that they have the right 
to kill 4 million people, 2 million children, and we didn't 
take them seriously in the nineties but we do now. I don't 
think they are going to achieve that by flying airplanes into 
buildings.
    I think the threat that we are talking about here today is 
the real threat. Being a freshman, by the time they get to me 
questions have been asked, so I apologize if I'm being 
redundant.
    But when you look at Dr. Kahn and what he did in terms of 
proliferation, in testimony before the Senate Select Committee 
on Intelligence, Porter Goss stated that there is nuclear 
material, specifically bomb grade, that has not been accounted 
for in Russia and that it could be in the hands of terrorists, 
and that is very alarming coming from our top intelligence 
chief.
    I have no idea how much of this stuff is unaccounted for, 
particularly out of the Soviet Union. I was hoping you could 
help me in clarifying that.
    In addition, as Mr. Gibbons pointed out, we hear a lot 
about the testimony about the briefcase, that there were maybe 
up to 60, I believe, unaccounted for. That has never really 
been verified in my view. I don't know whether these even 
existed in the Soviet Union, nuclear briefcases; and if so, is 
it true that there are that many unaccounted for? You can 
imagine the scenario of that being brought into New York or 
D.C., easily dropped off, and then an explosion occurs.
    That is the first question I have.
    The other one is that the threat coming from the border, we 
have provided funding to secure it, but the cartels' ship 
contraband, whether it is human, drug related, and certainly 
enriched uranium, plutonium could be brought across the border.
    In my prior career at the Justice Department, our job was 
to identify where the cells were or are in the United States 
and it is not an easy task. We were effective, but I am 
concerned that there are many here already that we don't know 
about.
    So I guess, and my question really is, what is your best 
estimate with respect to unaccounted plutonium that is out 
there and recognizing that it is a guesstimate, maybe it is 
proving a negative at this point.
    Ms. Holgate. I will just make a couple of comments on that, 
and it is hard to say. I mean, you can't really say how much 
about unaccounted, but I just want to talk about a couple of 
the reasons Russians might not know themselves how much 
material they made.
    In the Soviet times, each manufacturing plant had its 
quota, and they were supposed to create X amount of plutonium 
and highly enriched uranium that month. Now they depended on 
some other plant making their quota of the raw material, and we 
all know that the planned economy really never worked as 
planned, and so an operator who got maybe a little bit more of 
the input that month may make some of his product and put it 
off to the side off the books, never telling the bosses about 
it, maybe never even telling a lot of the plant managers about 
it. So if next month he did not get all his input, he could 
supplement from that off the books stock and then meet his 
quota and get his Hero of the Soviet Union Prize at the end of 
the year.
    There is zero way to know how much that was. Is it a small 
amount, is it a large amount? There is simply no way. What the 
U.S. has been trying to do through its assistance programs is 
to provide techniques, provide modern equipment, provide the 
training and some of the security culture to the Russians to 
learn how much they have.
    That job isn't done and there is nothing that requires 
Russia to tell anybody. Even if they did have perfect 
accountability, there is nothing about their NPT membership, 
about their bilateral relationship with the U.S. or anybody 
else, that requires them to report on their total quantities.
    Mr. McCaul. Do we have any evidence that there is any 
evidence that that was actually happening, that it was taken 
off?
    Ms. Holgate. We know it. The plant managers have said that 
that is how they operated their plants.
    As to the suitcase nukes, there has been a lot of attention 
to that one particular type of tactical weapon. I believe it is 
a red herring. There is certainly a lack of accountability for 
tactical weapons as a class, and these are all weapons, many of 
them are portable, whether it looked like a suitcase or whether 
it is just something you can carry with one or two people. They 
are all concerning.
    The kinds of specific statements that were made in the mid-
nineties about the suitcase nukes have never been verified, but 
the general point of the lack of accountability of small, low-
tech, possibly, you know, able to be broken into by a terrorist 
and actually detonated, that could be, you know, one or two 
people portable. We made them in our arsenal. The Russians made 
them in theirs.
    Mr. McCaul. What is the size of these tactical?
    Ms. Holgate. It varies a lot. Some of them look like an 
artillery shell, and some of them are, you know, even--are 
bigger, but they are not, you know--put a few of them in the 
back of an SUV. It is not what you think of when you think of 
the massive kinds of things.
    But the other thing is if you haven't designed the weapon, 
I mean, this is where the expertise may really be an issue. If 
you have got a weapon that you have stolen and you didn't 
design it, it is going to be hard to make it go off. Even if 
you're suicidal, even if you don't care, even low-tech weapons 
have some safety devices. But if you happen to have a designer 
that you have managed to convince to come over to your side, 
that kind of person may be able to help you detonate a stolen 
weapon.
    I think a much more likely pathway and much easier for the 
terrorist is to get the uranium, build their own crude design 
that they know is going to work, and go that route.
    Mr. McCaul. So import the uranium and then build the bomb 
in the United States?
    Ms. Holgate. Or build it in Europe, put it on a boat, sail 
it up the Potomac, bring it in over a border, and it is easy to 
shield this stuff. A little bit of lead will shield it from the 
kinds of even what we have got deployed now.
    Mr. McCaul. There has been discussion, and if I can indulge 
the Chairman, some discussion about a sensor that could detect 
radiological devices on cargo. Would the lead prevent that 
sensor from detecting it?
    Ms. Holgate. Well, let me make a distinction between a gun-
type device using HEU and a radiological device. A radiological 
device has lots of radioactivity. Highly enriched uranium has 
naturally not a lot, and you can shield it easily with a little 
lead. So the types of devices that are looking to detect a 
radiological situation are not going to catch typically a gun-
type device.
    Mr. Linder. The gentleman's time has expired. Gentleman 
from Rhode Island wish to inquire?
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank the 
witnesses for their patience in coming back to this hearing.
    Getting back to the A.Q. Khan network and that situation. 
And you indicated earlier there were some things, obviously, 
that caught us off guard in terms of sophistication and design 
of the centrifuges. How assessible is that type of technology 
for a terrorist to in build a sophisticated device using highly 
enriched uranium?
    The other question I have is what do we need to worry? You 
may not want to comment on this in an open hearing, but I was 
reminded earlier that Moore's Law doesn't apply to just 
physics; it may apply to computers. But what do we have to 
worry about as technology gets more and more sophisticated? 
What type of things do our intelligence officials especially 
need to watch for. As technology gets more sophisticated 
terrorist may be able to build a bomb that may not be easily 
built today, but with tomorrow's technology, would it be easy 
to build?
    Mr. Albright. There is--certainly we do have to worry that 
information on making bombs is going to become more widespread, 
and particularly with the Internet.
    Although what Khan was providing, particularly for a 
nation, was a tested bomb design, it was a Chinese bomb design 
given to Pakistan. And that was sort of the beauty of what Khan 
did, was he took what China had given them secretly and 
marketed it so it had no Pakistani fingerprints on it, so that 
design is certainly of interest to states trying to put 
warheads on missiles.
    In terms of what it would help, its contribution to 
terrorists would be it just teaches them how to make specific 
components and actually tells them what the components are for 
an implosion-type nuclear weapon. So it would be a tremendous 
advance in knowledge if you had all that information and then 
you could--you may choose to do something differently, but it 
gives you a tremendous knowledge base.
    In terms of far-off threats, the thing you worry about is 
that terrorists sitting in a country, perhaps with some 
complicity of a government, could learn how to build a uranium 
enrichment plant, particularly out of centrifuges, and so they 
could bypass really what amounts to our greatest safety; 
namely, that they have to get the fissile material from 
someplace, but if they can actually build it and get around 
that and do it with relative ease--and there are developments 
in centrifuges that is making it easier over time to build 
centrifuges, although that is happening slowly and hopefully if 
people aren't interested in centrifuges beyond the ones who 
already have them, some of that development may not take place.
    Ms. Holgate. Just one thing that I have heard from Russian 
colleagues on the centrifuge point that would worry me in the 
medium term is a gloss on this notion of terrorists gaining 
access to enrichment capacity. A lot of our discussion has 
centered on the notion that it takes a country to make HEU and 
it is easy access to theft of that that makes a terrorist a 
nuclear terrorist.
    If you break that link somehow and terrorists do get access 
to enrichment capacity, that changes all the equations that we 
have been talking about today.
    One technique that some Russian colleagues have talked 
about, I don't know whether they have proven it in the lab or 
not, is the potential to use actually very small-size medical 
centrifuges, hooked in large series, that can come out with 
small--but from a terrorist's perspective relevant--quantities 
of HEU. That would be the kind of technology that is more or 
less off the shelf if that is true. So this is something I 
would think an eye should be kept on.
    Mr. Langevin. Just so I am clear, and it is pretty much my 
understanding that we can pretty much pinpoint where highly 
enriched uranium or plutonium was produced in terms of from 
what country, so that in a sense if there ever was a nuclear 
device detonated it is highly likely it would have a sufficient 
fingerprint so that we would be able to trace where it was 
produced.
    Do you agree with that and is that something that we would 
want terrorists to understand? But right now it is my 
understanding that it would have a sufficient fingerprint that 
we could pretty much trace the country that it would come from.
    Mr. Albright. Yeah, but I don't know if--it is relevant? In 
the sense that if it is stolen in Russia and used by Iran, 
passes it to a terrorist group, knowing that it was Russian, is 
it necessarily going to help you in a response? So I mean it's 
nice to know and there are other reasons to do it, but I am not 
sure it contributes to us solving a terrorism problem. But 
maybe Ron or Laura may disagree.
    Ms. Holgate. The problem I have heard with that is the 
sample question, is you may be able to match a sample to a 
sample you already have that you know where it came from. The 
challenge may be there may be a lot of stuff out there that you 
don't know where it came from. I feel pretty confident we don't 
have a good sample of North Korean plutonium, for example. So 
it would be hard to be able to be sure that something came from 
them if you don't have a reference sample. So that is just one 
technical issue with that, but Ron is an actual weapons guy.
    Mr. Albright. If Russia was cooperative and really--I don't 
think it has been. If you had illicit trafficking, 
investigators would like to know exactly where it came from, 
and then that could help uncover a theft ring or uncover how 
the diversion happened. So in that sense the tracking is 
helpful, if nations are cooperating and producing the 
information so that you know what the signatures of the 
plutonium are and will take responsibility if it is from their 
country.
    Mr. Langevin. Could you expand on that? You said Russia has 
not been cooperative.
    Mr. Albright. I don't think they have been cooperative on 
the investigations, for example, when they have found plutonium 
in Europe. I think their position has been to deny that it came 
from Russia. Correct me if I'm wrong.
    Ms. Holgate. And they have not been willing--they consider 
the isotopic component of their material from any type to be 
classified, and so they haven't been willing to provide 
reference samples. Now, they may be able to do the analysis 
themselves, but then you run into a problem with are they 
prepared to admit what they find.
    Mr. Linder. The gentleman's time has expired. Mr. Simmons.
    Mr. Simmons. Thank you, Mr. Chairman. Thank you first, for 
having this very interesting and very important hearing. Thank 
you, second, for reconvening after the break. That is really 
helpful and I especially thank our panel for indulging us, 
given the schedule and the activity on the floor.
    I want to address most of my comments to Ambassador Lehman 
who I knew I think 25 years ago when he was on the Armed 
Services Committee staff in the Senate. I was staff director of 
the Senate Intelligence Committee at the time. And, without my 
glasses on, you look just as young and dynamic as I remember. 
It is great to have you here.
    I have some personal experience with nuclear 
nonproliferation. In a previous incarnation I worked abroad out 
of an embassy where a sovereign state was engaged in 
proliferating, and I came away from that experience, which 
covered about 3 years, with a sense that if you looked at the 
companies and the countries that seemed to be involved--and 
this was in the Far East--many of them were European; and even 
though we had nonproliferation regimes and even though 
sovereign states had signed off on these nonproliferation 
regimes and even though the IAEA was over there with inspectors 
all the time, many of the countries that showed up 25 or 30 
years ago on the vendor list are the same countries that we see 
here on this graphic from Time, ``The Merchant of Menace, and 
so it kind of begs the question from my perspective.
    I thought we were making some progress in those days. The 
proliferating countries that I was involved with apparently 
have not proliferated, but others are getting into the game, 
and the most worrisome part is perhaps that they are 
nongovernmental entities, nonsovereign states, small, highly 
resourced, ideological groups that don't have the constraints 
of retaliation when it comes to developing these weapons and 
deploying them.
    We always knew who we could retaliate against during the 
Cold War. We don't know that anymore, and so my question goes 
to the issue of intelligence.
    Our Intelligence Community was established and over 40 
years did a pretty good job in dealing with the sovereign state 
issues, whether it was conventional military, capabilities 
intelligence, or whether it dealt more with the 
nonproliferation sphere.
    When I look at the challenges we have today, finding that 
needle in a haystack, I wonder what the magnet is. Are we 
capable today of doing sting operations? Can we draw these 
folks out and get them? Do we have the assets within these 
groups that we need to be successful? How confident are you?
    And I see that we have just been called for another vote, 
so I will stop and let you respond if you could.
    Mr. Lehman. The whole history of intelligence about nuclear 
programs by nation states and by others is a fascinating 
history, with a lot of tremendous successes and a number of big 
surprises. It began with a basic assumption that was correct. 
The Manhattan Project demonstrated that to be a pathbreaking 
nuclear power, you could take a tremendous amount of your 
Nation's brain power and your resources and electricity, and so 
if you looked for that, you could get a sign for what was going 
on. The problem was that in the early days of the Cold War, we 
didn't have a whole lot of tools for looking, so even though 
the target we were looking at was in some ways massive, the 
tools weren't all that great. It resulted in some--I hesitate 
to say humorous--but some big mistakes.
    For example, one that is well known is that most people in 
public, when they were talking about the Chinese program, 
expected that the Chinese would do a plutonium bomb because you 
could look at China and see that there wasn't enough 
electricity for gaseous diffusion. And then it went off and 
they discovered it was the uranium bomb, and they discovered 
why there was so little electricity in China; it was all going 
to the gaseous diffusion plant at Lanzhou. That was a world--
but at least you had something big.
    The challenge today--and I really think the Intelligence 
Community understands it has got a big problem--is that that is 
not how things are going to be done, because so much of what is 
important, everybody has got. So we often make the point that 
the laptop computer that you have right now, or your desktop, 
is many times more powerful than the fastest, most powerful 
supercomputer we used when we designed the last nuclear weapon. 
People forget that when we designed the first nuclear weapon, 
we didn't have any. We had housewives with calculators.
    Now, agile manufacturing is going to be a problem. People 
talk about machine tools. Well you know, villages around the 
world have machine tools that are as good as anything that we 
found necessary for the early weapons program. That is 
happening.
    As I said with agile manufacturing, there are going to be a 
zillion different companies out there that are going to get 
designs for piece parts, and the average person in an industry 
looks at that part and he doesn't know what that is for, but he 
has got an order, he fills the order. And as more and more 
industries use technologies that were once associated with 
weapons programs, it is going to be hard to lift the weapons 
program out of that noise, because the rest of it is fully 
legitimate.
    But what I keep going back to is it is a challenge, and I 
don't think that we can separate the intelligence on nuclear 
terrorism from the intelligence on terrorism.
    But we can also augment it by going and looking at certain 
areas.
    I have mentioned that knowledgeable people--and, as I have 
emphasized, it is not the Nobel Prize winners necessarily--it 
is a whole range of people who have certain types of knowledge, 
sailing in those waters. We may catch our fish or we may not. I 
think that is an important area to delve into. I think, though, 
in the end, as I said, when you are looking for a needle in a 
haystack, you need a few magnets. And I think sting operations, 
false flags, things that permit us to go find them, are going 
to be very important.
    Mr. Linder. The gentleman's time has expired. Gentlewoman, 
Ms. Harman, wish to inquire?
    Ms. Harman. Yes. Thank you, Mr. Chairman.
    I would like to apologize to our witnesses for missing 
their testimony. I was meeting with Ambassador John Negroponte 
who is the new National Director of Intelligence, and, as you 
know, Mr. Chairman, we all try to be here on time but it is 
sometimes impossible given the schedules of this place.
    I did read your testimony. I do know Graham Allison 
extremely well. I am very worried, as one's district surrounds 
the ports of L.A. and Long Beach, about the possibility of a 
radiological bomb in an uninspected container. I know that 
worries our Chairman, too, since he represents real estate 
nearby as well.
    And I have two questions. I know there are votes, so let me 
just ask them both and hope that we can answer them quickly.
    One, I understand you talked about the importance of a 
threat and vulnerability assessment of where we might be most 
vulnerable to nuclear--a nuclear attack or the transit of 
nuclear materials. I just would welcome, if you could amplify 
your thoughts about that.
    Second, as Ranking Member on the Intelligence Committee, I 
continue to be very worried about the A.Q. Khan network. I know 
that we have--not only that he is under house arrest, but that 
most of his operatives, at least those we could identify, have 
been wrapped up. But I just wonder--and I am not asking 
anything classified here, and I wouldn't want you to answer it 
if you have classified information--but I just wonder if the 
operating assumption shouldn't be that there still may be folks 
out there who have access to his very thorough materials and 
who may still be engaged in trying to sell them to terrorist 
cells.
    Mr. Albright. On the second point there is a lot of 
concern. We don't know everything there is to know about the 
A.Q. Khan network. I think most of the major players have been 
identified, but not all their information has been recovered. 
And there are others involved that--well, let me put it this 
way. There haven't been a lot of confessions by the people that 
have been arrested, and so there is a lot of mystery, in fact, 
over do we know all the customers. A lot of their information 
was digitized so--and we know that the bomb designs, for 
example, haven't been found as far as I know. There has been 
some traces of them in Dubai. Those were actually in paper 
form, but have they been copied? The ones Libya got had been 
copied multiple times.
    So I think there is a lot of concern that the information 
at the heart of the Khan network has not all been found and 
that certainly could create or generate a new Khan network, 
perhaps smaller in scale but still deadly.
    And I think also that this group was very persistent-- I 
mean, some of these people go back to the seventies--in their 
help for Khan. And I think that--I don't think we know all of 
them, and I think it is going to take quite a while to unravel 
this mystery. And I think even when it is done, it very well 
could turn out that another Khan network replaces it, and one 
that I know that we worry about is North Korea. We don't know 
what they got, but let us say we know some of what they got; 
but if they--they are always selling buying and selling, in 
fact. And they could decide--if things are not resolved so that 
they do go on a path of denuclearization--they could decide 
that they are going to make money by selling centrifuges.
    Ms. Harman. Just to interrupt right there, my experience 
with the North Koreans--and I actually went there as part of an 
Intelligence Committee CODEL in 1997--is that they will sell 
what they have. They have sold--and this is not classified 
anymore--their missile technology. Iran, among others, is 
benefiting from that. So that is a new set of worries.
    But I just want to underscore what you just said, which is 
we don't know everything about the A.Q. Khan network itself, 
let alone copycat networks, and there may be folks out there 
with some of the materials developed by some very sophisticated 
people who are still trying to sell them or who have sold them 
to terrorist networks; is that correct?
    My time is almost up. Any comments on a need for a threat 
and vulnerability assessment.
    Ms. Holgate. I will just second that very heartily. One of 
the things that NTI has focused on as a gap in our knowledge is 
looking at the civil use of highly enriched uranium, the 
research reactors at universities around the world, the 
critical facilities. There is no comprehensive inventory 
qualitative threat assessment of those facilities that the U.S. 
Government has.
    Mr. Linder. Anyone else have any questions? We have 5 
minutes to vote.
    Thank you all. Thank you for staying and answering some 
more questions. We are grateful. The hearing is adjourned.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
